U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




          PUBLIC
         RELEASE


              BUREAU OF THE CENSUS

  Dress Rehearsal Activities at Menominee
 Indian Reservation and Chicago Regional
   Census Center Show That Improvements
              Are Needed for Census 2000

       Inspection Report No. IPE-10753 / September 1998




           Office of Inspections and Program Evaluations
September 30, 1998

MEMORANDUM FOR:               James F. Holmes
                              Acting Director
                              Bureau of the Census


FROM:                         Johnnie E. Frazier
                              Acting Inspector General

SUBJECT:                      Final Report: Dress Rehearsal Activities at Menominee Indian
                              Reservation and Chicago Regional Census Center Show That
                              Improvements Are Needed for Census 2000 (IPE-10753)


As a follow-up to our August 28, 1998, draft report, this is our final report on our inspection of
the Bureau of the Census’ dress rehearsal site in Menominee County, Wisconsin, and the Chicago
Regional Census Center. The report includes comments from your September 30, 1998, written
response. We commend the bureau on its responsiveness in taking quick action to address most
of our concerns. Many of the issues we raised have already been resolved. In other cases,
implementing actions are planned. A copy of your response is included in its entirety as an
appendix to the report.

We found that the bureau’s procedures for the dress rehearsal were largely being implemented as
designed, and the Menominee and Chicago Regional Census Center staff appear to be dedicated,
resourceful, and effectively managed. However, we found that key areas–including the dress
rehearsal maps, payroll/personnel system, advertising campaign, and certain administrative
operations–need correction or improvement before conducting the full Year 2000 Census. Based
on our interviews, fieldwork, and analysis, this report conveys our observations about the
bureau’s implementation of the dress rehearsal at Menominee and Chicago, and makes
recommendations to improve the bureau’s ability to learn from the dress rehearsal experience.

Please provide us with an action plan, within 60 days, addressing the inspection recommendations,
including when your intended actions will be completed in accordance with the procedures
described in DAO 213-5. We appreciate the cooperation and courtesies extended by your staff
during our inspection.

Attachment

cc:    Robert J. Shapiro, Under Secretary for Economic Affairs
U.S. Department of Commerce                                                                                     Final Report IPE-10753
Office of Inspector General                                                                                             September 1998




                                                   TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          I.        Dress Rehearsal Operation Is Working As Intended, but Office Operation Is Not
                    Representative of Census 2000 Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          II.       Problems With Enumerator Maps Need to Be Corrected . . . . . . . . . . . . . . . . . . . . 7

          III.      Payroll/Personnel System for Census 2000 Needs to Be Evaluated . . . . . . . . . . . . 11

          IV.       Major Problems Noted in the Advertising Campaign . . . . . . . . . . . . . . . . . . . . . . . 14

          V.        Computer Specialist Positions Were Difficult to Fill . . . . . . . . . . . . . . . . . . . . . . . 20

          VI.       Delivery of Office Materials Needs to Be Improved . . . . . . . . . . . . . . . . . . . . . . . 23

          VII.      Partnership Effort Needs to Be Sustained Throughout the Dress Rehearsal
                    Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

          VIII.     Integrated Coverage Measurement Procedures and Reporting Need
                    Improvement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

          IX.       Other Census Dress Rehearsal Programs Offered Lessons Learned . . . . . . . . . . . . 33

                    A.        Procedures and assignments required some unnecessary driving and cost .                                      33
                    B.        Training can be improved . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           34
                    C.        Targeted outdoors enumeration does not appear to meet bureau’s
                              selection criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   35
                    D.        Be Counted forms and boxes were placed according to procedures . . . . . .                                   36
                    E.        Questionnaire Assistance Centers not heavily used . . . . . . . . . . . . . . . . . .                        37

          X.        Improvements are Needed in Some Key Administrative Operations . . . . . . . . . . . 39

                    A.        Procedures for preparing, reviewing, and approving employee time
                              sheets are not always followed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
                    B.        Manual scheduling of tasks at Regional Census Center is burdensome . . . . 40
U.S. Department of Commerce                                                                                   Final Report IPE-10753
Office of Inspector General                                                                                           September 1998




                  C.        Poor employee performance is not being documented . . . . . . . . . . . . . . . .                             41
                  D.        One employee was hired prior to background check approval . . . . . . . . . .                                 41
                  E.        Backup plan for office automation systems has not been prepared . . . . . . .                                 42
                  F.        Some non-response follow-up supplemental payment criteria are not
                            clearly defined . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   42

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

APPENDICES
          A.                Glossary of Terms
          B.                Bureau of the Census Response
U.S. Department of Commerce                                                                     Final Report IPE-10753
Office of Inspector General                                                                             September 1998




                                           EXECUTIVE SUMMARY

The U.S. Constitution requires that a population count be conducted every 10 years for the purpose
of apportioning the seats in the House of Representatives among the states. The Bureau of the
Census’ decennial census, which is the nation’s largest statistical data-gathering program, provides
data for apportionment and other federal activities, as well as information for businesses, researchers,
educators, and private citizens. While the decennial census count is important and useful, it is also a
target of much debate, especially concerning its cost and accuracy. The 1990 decennial was the most
expensive in history, at about $2.6 billion to count about 249 million people, and the overall net
undercount of the population increased to1.8 percent.1 The bureau, in developing and testing its
plans for conducting the census in year 2000, clearly is focused on minimizing costs and reducing the
undercount.

Prior to each decennial census, the bureau traditionally performs a dress rehearsal of planned
operations, systems, procedures, and workflow. Although the bureau tested some planned 2000
decennial operations in 1995 and 1996, the 1998 dress rehearsal is designed to be the bureau’s major
test of all previously tested and some untested operations. The bureau began its 1998 dress rehearsal
in December 1997, and it will continue through December 1998 at Sacramento, California; Columbia,
South Carolina; and the Menominee Indian Reservation in Keshena, Wisconsin. To determine
whether dress rehearsal operations were efficient and effective, and met scheduled deadlines, the
Office of Inspector General is reviewing dress rehearsal operations at all three sites.2

The bureau chose the Menominee Indian Reservation, in part, because the large percentage of tribal
members living on the reservation was conducive to testing new and revised techniques specifically
aimed at reducing, for 2000, the significant undercount of American Indians that occurred in 1990.
We conducted our inspection at the census field office in Keshena on the Menominee Indian
Reservation to determine whether personnel followed dress rehearsal policies and procedures. We
also visited the bureau’s regional census center in Chicago to review managerial and administrative
oversight and support of the Keshena office operations.




        1
            Modernizing the U.S. Census, National Research Council, 1995.
        2
          The dress rehearsal’s key activities include address listing, update/leave, non-response follow-up, and
integrated coverage measurement. Address listing creates mailing lists in rural areas by identifying and listing the
mailing addresses for all places where people live or could live. Update/leave is where enumerators personally
deliver a census questionnaire to a household to be completed and returned by mail, and at the same time update
the address list. Non-response follow-up is where enumerators visit addresses from which no questionnaire was
returned by mail, from which a telephone response was not received, or for which no administrative records could
be located. Integrated coverage measurement is a coverage measurement process for estimating the number of
people and housing units missed or counted more than once. This report covers our review of Menominee dress
rehearsal activities through the first two weeks of Integrated Coverage Measurement activities.

                                                            i
U.S. Department of Commerce                                                      Final Report IPE-10753
Office of Inspector General                                                              September 1998




While we observed many favorable conditions, we also found some operational and administrative
problems that have the potential, if not corrected, of reducing the efficiency and effectiveness of
Census 2000. Our specific findings are as follows:

l      Dress rehearsal operation is working as intended, but office operation is not
       representative of Census 2000 operations. Activities in Keshena and Chicago are meeting
       the objectives of the dress rehearsal to simultaneously test all procedures, work flows,
       equipment, applications, programs, and systems planned for Census 2000. We found that
       dress rehearsal operations are generally working as the bureau intended because staff at both
       the Keshena and regional center are learning from the experience and making efforts to
       correct problems as they occur. Where dress rehearsal procedures have broken down or been
       inadequate to achieve the desired ends, staff in the two offices appear to have handled the
       problems and informed the appropriate bureau headquarters officials. In addition, the
       Keshena and Chicago office staff appear dedicated, conscientious, and resourceful in their
       implementation and assessment of dress rehearsal procedures. We believe that the strong
       leadership of the Chicago regional director, and the Keshena and regional center managers,
       has greatly contributed to employee desire for a successful dress rehearsal. The Chicago
       regional director is especially proud of the partnership established between the Chicago
       regional center and the Menominee tribal government.

       However, it is important to note that the Menominee dress rehearsal is not entirely
       representative of Census 2000 operations because (1) the Menominee and regional center
       office operation and lines of authority are different from the planned Census 2000
       organizational structure and (2) Menominee is probably receiving much more management
       oversight and support now than a local office will receive in Census 2000. For Census 2000,
       the bureau will have 12 temporary regional centers augmenting the 12 regional offices, and
       about 475 local offices will be established throughout the country to manage the activities of
       many census tracts. However, the “field office” in Menominee is not fully representative of a
       “local office” because for the Menominee dress rehearsal, the Chicago regional center is
       carrying out many of the “local office” operations such as processing payroll and personnel
       forms. More importantly, for Census 2000 a typical local office will not have a regional
       center’s focused attention, like the Keshena office now receives from the Chicago regional
       center. Because the Menominee dress rehearsal is not an exact demonstration of combined
       operations for Census 2000, extrapolations from the Menominee dress rehearsal to Census
       2000 procedures and organization must be made with care and a clear awareness of their
       differences (see page 6).

l      Problems with enumerator maps need to be corrected. During dress rehearsal operations,
       Keshena staff experienced serious problems with the maps provided to them, including
       (1) inconsistencies between the maps and their associated address list printouts, and (2) maps
       that were not drawn to a useful scale. Although the inconsistencies between the address lists
       and maps were resolved during the dress rehearsal, their underlying cause may need further
       bureau attention before 2000. In addition, while some maps had numerous housing units that
       were plotted on top of one another, they were redrawn to an appropriate and useful scale.

                                                  ii
U.S. Department of Commerce                                                               Final Report IPE-10753
Office of Inspector General                                                                       September 1998




        However, it is not clear that the corrective fix implemented during the dress rehearsal would
        be feasible to implement in 2000 (see page 7).

l       Payroll/personnel system for Census 2000 needs to be evaluated. The Pre-Appointment
        Management System/Automated Decennial Administrative Management System was designed
        to support payroll and personnel processing and provide information required by the bureau’s
        management and operational personnel. For Census 2000, the system will process about 4
        million personnel actions and about 30 million time and expense forms, provide reports and
        data outputs, and maintain historical data. The bureau’s payroll/personnel system displayed
        numerous incorrect fields from scanned payroll and personnel forms, forcing clerks to
        manually correct too much data and, in many cases, scan the same batch of forms more than
        once (see page 11).

l       Major problems noted in the advertising campaign. For Census 2000, the bureau initiated
        a national advertising campaign to raise public awareness and motivate citizens to return
        questionnaires. The bureau’s prime advertising contractor hired an American Indian-owned
        advertising firm to target advertising for the American Indian and Native Alaskan
        communities. Television and radio spots and some print advertisements tested in the
        Menominee dress rehearsal were generally well received by Keshena staff, the Complete
        Count Committee, and the post-dress-rehearsal focus groups of Menominee citizens.3
        However, some advertising products, particularly paid print advertising, had content problems
        and were poorly placed. In addition, there was no prior consultation and coordination with
        the local Complete Count Committee and the tribal chairman. If the consultation had
        occurred, it may have minimized problems of poster content and ad placement (see page 14).

l       Computer specialist positions were difficult to fill. The Chicago regional center had
        difficulty hiring computer specialists because salaries for key positions were not competitive.
        The bureau’s 12 regional centers need 60 computer specialists for various computer activities
        during the dress rehearsal. Although the Chicago regional center has filled its 5 positions,
        only 39 of 60 have been filled nationwide. In addition, bureau headquarters lacks a timely
        report of staffing levels at the regional centers and for management positions at the local
        offices (see page 20).

l       Delivery of office materials needs to be improved. While at the Keshena office, we found a
        number of problems pertaining to supplies and promotional materials. First, training manuals
        and initial supplies for new operations were being delivered just as the operation was to begin,
        leaving little time for advance preparations and setup. Second, some equipment, furniture,
        and supplies were being delivered without advance notification, wasting the time of the
        personnel trying to accommodate the deliveries. Third, some quantities of supplies for
        Keshena had not been properly estimated causing an over and under supply. Finally, we noted
        Chicago regional center supplies sent by vendors were not always being correctly routed to

        3
         Complete Count Committees enlist local community, religious, and business members for support of
census activities.

                                                        iii
U.S. Department of Commerce                                                     Final Report IPE-10753
Office of Inspector General                                                             September 1998




       the proper person, and some regional center supplies were being sent to another office by
       mistake. If these problems are not corrected, they could adversely disrupt Census 2000
       operations (see page 23).

l      Partnership effort needs to be sustained throughout the dress rehearsal activities.
       Census 2000 will incorporate active partnerships with state and local governments,
       community organizations, businesses, religious congregations, and the media to increase
       participation and reduce the undercount. We found that the partnership effort has made
       significant contributions to Menominee dress rehearsal operations to date. However,
       Menominee’s Complete Count Committee has no planned activities to support the dress
       rehearsal’s non-response follow-up and integrated coverage measurement operations
       (see page 27).

l      Integrated Coverage Measurement procedures and reporting need improvement. ICM
       operations are intended to act as an independent quality check on information being gathered
       by the regular census enumerators. ICM creates a separate list of housing units in particular
       areas for comparison with the census list. Differences between the two lists are resolved by
       conducting interviews at ICM housing units and comparing information with that obtained by
       census enumerators on the same household. This information will be used to estimate the
       number of people and housing units missed or counted more than once in Census 2000. In
       order for ICM to be successful as a quality check on information gathered during the actual
       census, the two operations must be kept separate. However, in the Menominee field office,
       we found that an ICM lister violated Census procedures by inappropriately showing a resident
       being interviewed an ICM map, and an ICM enumerator history report incorrectly excluded an
       employee’s dress rehearsal work experience. Accurate report information is necessary
       because ICM personnel with dress rehearsal experience must not be assigned to work in the
       same geographical assignment areas they worked during dress rehearsal. Although these
       incidents, in isolation, are minor, they indicate that the bureau should develop and implement
       strict guidance for Census 2000 to ensure that the two operations are completely separate (see
       page 30).

l      Other census dress rehearsal programs offered lessons learned. Several additional
       problems with other census operations need resolution, including inefficient update/leave
       procedures and training that was sometimes repetitive. In addition, the bureau’s selection
       criteria for Targeted Non-Sheltered Outdoor Locations enumeration was not adhered to, the
       role and purpose of the Be Counted program was not widely understood by Keshena office
       staff, and volunteers at the questionnaire assistance centers noted that few people asked for
       assistance (see page 33).




                                                 iv
U.S. Department of Commerce                                                     Final Report IPE-10753
Office of Inspector General                                                             September 1998




l      Improvements are needed in some key administrative operations. Some key
       administrative operations should be improved by adhering to the procedures for employee
       time sheets, creating a regional center on-line scheduling tool, documenting the poor
       performance of employees, ensuring that employees are not hired prior to background check
       approval, preparing a backup plan for regional center office automation operations, and
       complying with supplemental payment criteria (see page 39).

On page 45 we offer detailed recommendations to address our concerns.




In responding to our draft report, the Bureau of the Census agreed with all of our recommendations
except one, and the bureau has taken action, or will take action, to address those recommendations.
The bureau did not concur with our recommendation to develop a training plan that is flexible enough
to avoid repetition in its orientation training. We address this issue in the body of the report. The
bureau provided comments on each recommendation and we have taken these comments into
consideration and have made changes as appropriate. A copy of the bureau’s response is included in
its entirety as an appendix to this report.




                                                  v
U.S. Department of Commerce                                                      Final Report IPE-10753
Office of Inspector General                                                              September 1998




                                         INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of Inspector
General conducted an inspection of the Bureau of the Census’ 1998 dress rehearsal sites in Keshena,
Wisconsin, and Chicago, Illinois, to assess dress rehearsal operations, procedures, and programs.
Because 1998 dress rehearsal activities are a prelude to Census 2000, the bureau’s ability to assess
and fine-tune operations as a result of the dress rehearsal is important.

Inspections are special reviews that the OIG undertakes to provide agency managers with timely
information about operations, including current and foreseeable problems. Inspections are also done
to detect and prevent fraud, waste, and abuse and to encourage effective, efficient, and economical
operations. By highlighting problems, the OIG intends to help managers move quickly to address
those identified during the inspection and avoid their recurrence. Inspections may also highlight
effective programs or operations, particularly if they may be useful or adaptable for agency managers
or program operations elsewhere.

We conducted our inspection from March through July 1998, with on-site visits from March 25-26,
April 20-24, June 22-23, and July 6-8, in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency. At the conclusion of the inspection, we
discussed our observations and recommendations with the bureau’s Deputy Director and Chief
Operating Officer, the Principal Associate Director for Programs, the Associate Director for
Administration, the Associate Director for Field Operations, and the Associate Director for Decennial
Census. At the regional center, we discussed our observations and recommendations with the
Chicago Regional Director, the Assistant Regional Census Manager for Operations, the Assistant
Regional Census Manager for Administration, and the Area Manager for the Menominee dress
rehearsal site.

                                     PURPOSE AND SCOPE

The purpose of our inspection was to assess the bureau’s dress rehearsal operations to determine
whether operations are being carried out in an effective, efficient, economical, and timely manner.
The scope of our inspection included (1) observing Keshena field personnel during
shelter/service-based enumeration, group quarters enumeration, and Targeted Non-Sheltered Outdoor
Locations enumeration; (2) determining whether the Keshena field personnel and Chicago Regional
Census Center personnel followed dress rehearsal policies and procedures;
(3) identifying and observing communications between Keshena field personnel, the Chicago regional
center, and the bureau’s headquarters; (4) interviewing and assessing the concerns of the Menominee
Complete Count Committee members; (5) observing the Chicago regional center administrative and
automation systems; (6) reviewing Census 1998 dress rehearsal and Census 2000 programs including
training, recruiting, partnerships, and advertising; and (7) identifying procedures, operations, and
programs to improve the cost and quality of the dress rehearsal and Census 2000.




                                                  1
U.S. Department of Commerce                                                       Final Report IPE-10753
Office of Inspector General                                                               September 1998




In addition, the Office of Inspector General will issue separate reports on our review of dress
rehearsal activities in Columbia, South Carolina, and Sacramento, California.

                                                BACKGROUND

The mission of the bureau is to be the preeminent collector and provider of timely, relevant, and
quality data about the people and economy of the United States. To obtain this information, the
bureau conducts surveys to collect and analyze social, economic, and geographic data. The bureau
continually conducts surveys to produce a general view and comprehensive study of the nation’s
social and economic conditions.

In addition, the U.S. Constitution requires that a population count be conducted every 10 years for
the purpose of apportioning the seats in the House of Representatives among the states. The Bureau
of the Census’ decennial census, which is the nation’s largest statistical data-gathering program,
provides data for apportionment and other federal activities, as well as information for businesses,
researchers, educators, and private citizens. While the decennial census count is important and useful,
it is also a target of much debate, especially about its cost and accuracy. The 1990 decennial was the
most expensive in history, at about $2.6 billion to count about 249 million people, and the overall net
undercount of the population increased to1.8 percent.4 Undercounts have serious implications for
legislative redistricting and funding allocation. The bureau, in developing and testing its plans for
conducting the census in year 2000, clearly is focused on minimizing costs and reducing the
undercount.

Prior to each decennial census, the bureau traditionally performs a dress rehearsal of planned
operations, systems, procedures, and workflow under as near census-like conditions as possible.5
Some of the key dress rehearsal activities include address listing, update/leave, non-response
follow-up and integrated coverage measurement. Figure 1 outlines key activities for the Menominee
dress rehearsal site. Although the bureau tested some planned Census 2000 operations in 1995 and
1996, the 1998 dress rehearsal is designed to be the bureau’s major test of all previously tested and
some untested operations.

The bureau selected three sites for the dress rehearsal: the city of Sacramento, California; 11 counties
in an area near and including the city of Columbia, South Carolina; and the Menominee American
Indian Reservation in Keshena, Wisconsin. The bureau’s strategy was to combine a large urban site,
a small city-suburban-rural site, and an American Indian Reservation site to provide a comprehensive
testing environment for refining and testing planned Census 2000 methodologies to determine
whether the procedures, systems, techniques, and workflow will simultaneously work effectively.
The rehearsal is also supposed to show what does not work and what needs improvement.




       4
           Modernizing the U.S. Census, National Research Council, 1995.
       5
        Census 2000 Operational Plan, July 1997.

                                                         2
U.S. Department of Commerce                                                                Final Report IPE-10753
Office of Inspector General                                                                        September 1998




Figure 1

                                  MENOMINEE DRESS REHEARSAL
                                       KEY ACTIVITIES
 Governments conduct local update of census                  August 31 - September 17, 1997
 addresses review
 Open local census offices                                   November 3 - 14, 1997
 Deliver initial questionnaires (update/leave)               March 14 - April 10, 1998
 Mail reminder cards                                         April 7 - 11, 1998
 “Be Counted” campaign                                       April 16 - May 1, 1998
 Census Day                                                  April 18, 1998
 Contact housing units not responding by mail                May 14 - June 26, 1998
 Quality check interviews                                    May 1 - August 21, 1998
 Close local census offices                                  July 15 - August 12, 1998
 Produce census results                                      December 26, 1998
 Produce P.L. 94-171 products                                March 31, 1999

Specifically, the bureau’s dress rehearsal and corresponding evaluation program have been designed
to (1) operationally demonstrate field and office methods, procedures, and systems in a simulated
decennial environment; (2) evaluate the coverage of persons and housing units and the completeness
and quality of the data collected; (3) test components on a non-sampling census; and (4) validate the
plans for Census 2000, including the use of sampling techniques. As part of a compromise between
the Administration and Congress over the bureau’s fiscal year 1998 appropriation, the Sacramento
and Keshena sites will use sampling and statistical estimation during the dress rehearsal and to
improve the accuracy of the population count, while the Columbia site will attempt a 100 percent
population count without the use of sampling to improve the accuracy of the count.6

For the three dress rehearsal sites, the bureau established two local census offices in Sacramento and
Columbia, and one census field office in Keshena to perform field operations; three regional centers to
provide each dress rehearsal site with managerial, technical, and administrative oversight;7 and one
data capture center, located in Jeffersonville, Indiana, to receive and process dress rehearsal


        6
         Departments of Commerce, Justice, and State, the Judiciary, and Related Agencies Appropriations Act,
1998, P.L.105-119, Nov. 26, 1997.
        7
         The bureau will operate 12 regional centers for Census 2000.

                                                         3
U.S. Department of Commerce                                                                       Final Report IPE-10753
Office of Inspector General                                                                               September 1998




questionnaires and provide other administrative support (see Appendix for glossary of terms). The
regional center overseeing operations at the Menominee Indian Reservation is in Chicago, Illinois.

Menominee Indian Reservation

The Menominee Indian Reservation is located in northeastern Wisconsin, comprising about 235,000
acres of mostly heavily forested land. The Menominee Reservation and Menominee County share
almost identical exterior boundaries. The bureau’s official 1996 estimates for Menominee County
showed a resident population of 4,609 persons and 1,899 housing units.

The bureau selected the Menominee Indian Reservation as a dress rehearsal site based on the
recommendation of the Census Advisory Committee on the American Indian and Alaska Native
Populations. The committee noted that the reservation’s large percentage of tribal members living on
the reservation would be conducive to rehearsing new and revised operations specifically aimed at
reducing the large undercount of American Indians experienced during the 1990 census. During that
census, the most significant undercount of any population group took place on American Indian
reservations. While the total national net undercount in 1990 was estimated at 1.8 percent, the
undercount for American Indians living on reservations exceeded 12 percent. In addition to the
committee’s recommendation, the Menominee tribal government had offered to help the bureau
reduce the undercount among the Menominee and other American Indian populations across the
nation, making the Menominee reservation a good place to do the dress rehearsal.

During the dress rehearsal, the Menominee Tribal Government and the members of the Complete
Count Committee - appointed by the Menominee Tribal Chairman - have provided valuable
assistance. Both groups have publicized the dress rehearsal, educated the community about the
census, and encouraged the community to participate in the census. We discuss the partnership
between the tribal government, the Complete Count Committee, and bureau staff in Section VII (see
page 27). The Menominee Tribal Chairman believes that this work has been vital to the success of
the dress rehearsal.8

Menominee Census Field Office

The field office in Keshena opened in February 1997, prior to dress rehearsal operations, and houses
five office staff9 in about 500 square feet of office space. The bureau’s plan was for the small field
office to be replaced by a larger “local office,” such as the ones planed for the decennial census, when
local staffing needs increased. However, the bureau lacked funding for a larger office and also
believed that it was not necessary because of the small geographic area covered by the Menominee
dress rehearsal site. For Census 2000, each local office will have its own administrative support staff.
For the dress rehearsal, administrative support for the Menominee field office was provided by the
regional center located about 400 miles away.


         8
          Memorandum from the Menominee Tribal Chairman to the Chicago Regional Director, August 7, 1998.
         9
           The Keshena office staff included a field operations supervisor, a recruiting assistant, a partnership
assistant, and two crew leaders.

                                                             4
U.S. Department of Commerce                                                      Final Report IPE-10753
Office of Inspector General                                                              September 1998




Chicago Regional Census Center

The Chicago regional center opened in February 1998, with about 18,000 square feet for personnel,
computers, printers, and map plotters. The regional center has provided the Keshena office with
managerial oversight and administrative support. During our inspection, 120 employees were
working in the regional center, with about 60 employees preparing maps in two shifts in the
geography area. Most of the 120 regional center employees support the different Census 2000
activities including geographic map production, administration, automation, recruiting, partnerships,
and advertising. Eight regional center personnel devote 100 percent of their time to dress rehearsal
activities.




                                                  5
U.S. Department of Commerce                                                      Final Report IPE-10753
Office of Inspector General                                                              September 1998




                              OBSERVATIONS AND CONCLUSIONS

I.     Dress Rehearsal Operation Is Working As Intended, but Office Operation Is Not
       Representative of Census 2000 Operations

We found that activities in Keshena and Chicago are meeting the objectives of the dress rehearsal to
simultaneously test all procedures and systems planned for Census 2000. Specifically, the Keshena
and Chicago offices are learning from the experience and making efforts to correct problems. Where
procedures have broken down or been inadequate to achieve the desired ends, we found that the two
offices appear to have handled the problems and informed the appropriate bureau headquarters
officials. For example, problems that the Keshena and regional center staff experienced with maps
and advertising were openly discussed and, in fact, the Keshena staff have kept both the regional
center managers and bureau headquarters personnel informed about most dress rehearsal issues and
problems in Menominee County.

In addition, we observed that the Keshena and Chicago staff appear dedicated, conscientious, and
resourceful in their implementation and assessment of dress rehearsal procedures. We believe that the
strong leadership of the Chicago regional office director and the Keshena and regional center
managers has greatly contributed to employee desire for a successful dress rehearsal. The regional
center managers have established professional and well-functioning operations in Keshena and
Chicago using their extensive prior decennial census experience. The Chicago regional director is
especially proud of the partnership established between the Chicago regional center and the
Menominee tribal government. As a result, the Menominee Complete Count Committee was actively
engaged during the dress rehearsal efforts. Communication and problem solving are also being
emphasized by regional center managers. The regional director holds daily morning meetings with his
assistant managers to inform regional center staff of relevant events, promote teamwork, and
exchange information on dress rehearsal activities. Finally, Keshena and regional center staff have
effectively carried out their responsibilities despite the numerous challenges that have arisen and the
high volume of visitors overseeing dress rehearsal operations and Census 2000 preparations.

However, it is important to note that the Menominee dress rehearsal is not entirely representative of
Census 2000 operations because Menominee is probably receiving much more management oversight
and support now than a local office will receive in Census 2000. The Menominee and regional center
office structure and lines of authority are different from the planned Census 2000 organizational
structure. For the Menominee dress rehearsal, the Chicago regional center is carrying out most of the
administrative activities, such as payroll processing, that will be carried out by local offices during
Census 2000.

More importantly, for Census 2000 a typical local office will not have a regional center’s focused
attention, like the Keshena office now receives from the Chicago regional center. Since the
Menominee dress rehearsal is not an exact demonstration of combined operations for Census 2000,
extrapolations from the Menominee dress rehearsal to Census 2000 procedures must be made with
care and a clear awareness of their differences. We have attempted to do so in this report.




                                                   6
U.S. Department of Commerce                                                                  Final Report IPE-10753
Office of Inspector General                                                                          September 1998




II.     Problems With Enumerator Maps Need to Be Corrected

During dress rehearsal operations, Keshena staff experienced serious problems with the maps the
bureau provided them, including (1) inconsistencies between the numbering and locations of map
spots10 and their associated address list printouts, and (2) maps that were not drawn to a useful scale.
Although the inconsistencies that occurred between the address lists and maps were resolved by local
and regional personnel during dress rehearsal, their underlying cause needs further attention by the
bureau before 2000. In addition, while the map scale problem also was overcome, it is not clear that
such a corrective fix would be feasible to implement in 2000.

Dress rehearsal maps did not match address list registers

On every dress rehearsal map, each housing unit has its own map spot, plotted as a rectangle.
Figure 2 illustrates a fictitious census block and corresponding map spots. Plotted map spots provide
bureau employees with a common geographical reference so that (1) housing units can be found, (2)
multiple visits can be coordinated, and (3) new construction or other housing unit location errors can
be recorded accurately and systematically. These purposes require the maps to be legible and
inclusive of sufficient land marks (locations of roads, rivers, etc.) for orientation. During dress
rehearsal, address listers recorded housing unit map spots for actual housing unit locations in rural
areas such as Menominee.11 Depending on the circumstance and operation, the lister verified the
location visually or through discussions with occupants or neighbors of the housing unit. Verification
of locations took place in Menominee during several operations, including address listing and
update/leave, where listers personally delivered questionnaires to households and update the address
list. Where the listers found a housing unit that was not on the map, they added it to the map.

Map spots were also reviewed by a representative of the tribal government during the local review
process. In August 1997, the regional center provided a set of preliminary update/leave maps to the
local Menominee government liaison. The tribal government liaison relocated over 300 housing units
on the Menominee maps, most involving moves from one geographic block to another. These
housing unit changes were recorded at the regional center and forwarded to the bureau’s data
processing site in Jeffersonville, Indiana, for the processing of map revisions. However, due to
funding shortages during the continuing resolution in October and November 1997, Jeffersonville was
unable to hire and pay data entry staff, so the data entry changes were forwarded to bureau
headquarters where they were entered. Headquarters sent new update/leave map data to the Chicago
regional center, where the maps were printed and then forwarded to the Keshena office.




        10
             Map spots designate the location of a given housing unit on a map.
        11
           This activity was performed for all “non-city-style” addresses in the country. Menominee County
contains entirely non-city-style addresses.

                                                            7
U.S. Department of Commerce                                                                 Final Report IPE-10753
Office of Inspector General                                                                         September 1998




Figure 2




         Source: Local Update of Census Addresses Technical Guide, Bureau of the Census, April 1997.


Once update/leave began, the Keshena census staff began noticing that not all of the addresses on the
update/leave address register were appearing on their update/leave maps. It appeared that most of
the liaison’s changes had been reflected in the maps but not on the address register. When this
pattern of map spots not matching the address register was detected, the area manager,12 regional
center geographers, and bureau headquarters staff began trying to detect the source of the problem,
quickly developing a procedural modification that allowed the update/leave operation to proceed.
The modification involved having questionnaires delivered as listed on the address register. Where
the map spot did not match the register, the map spot was manually revised. In this way, the address
register served as the master list of housing units to which questionnaires had been delivered.

Even with the bureau’s procedural fix for the address register problem, other census operations may
face additional challenges as a result of the maps not matching the registers. For example, the
accurate tabulation of housing units may be difficult if the geographic assignments suggested by the
local liaison and approved by the bureau have subsequently been overwritten by the procedural fix
during update/leave. Indeed, staff in Menominee reported to us that they observed households still
listed on non-response follow-up address registers that they themselves had marked for block
reassignment or, in some cases, deletion during earlier operations.



        12
          Area managers hold temporary positions at each regional center for managing the dress rehearsal and
Census 2000. During Census 2000, area managers will supervise a number of field offices and local offices
comprising enumeration of up to 3,000,000 housing units.

                                                         8
U.S. Department of Commerce                                                      Final Report IPE-10753
Office of Inspector General                                                              September 1998




We believe that the bureau should ensure that the proper map spot assignments, including housing
unit/map spot numbers, have been accurately recorded in the bureau’s address list databases to
support the (1) consistent matching of housing unit records during various operations, and (2) correct
tabulation of data according to the local government’s geographic reassignments of housing units.
The bureau should also determine the actual sources of the discrepancy between the update/leave
maps and their address register and ensure that similar discrepancies do not occur in 2000.

Dress rehearsal maps were not drawn to useful scale

Some geographical “blocks” are larger than others, resulting in block maps being plotted at very
different relative scales. We observed block maps with scales ranging from 1:1,024 to 1:19,198 for
blocks ranging from 200 to about 5,000 meters (or 218 to about 5,450 yards) wide. On maps
provided for very large blocks, the map scale was too small. Some adjacent housing units appeared
to be plotted on top of each other. As such, some maps were not useful for locating individual
housing units. One large block had 26 housing units plotted within an area less than one square inch,
and housing unit numbers were indiscernible.

The maps identified as unusable were flagged by the Keshena staff, reported to the area manager, and
the update/leave workload was redistributed to areas where the map scale was not a problem. The
regional center and staff at bureau headquarters quickly worked to resolve the problem, and within
days, had printed and sent two replacement sets of maps for the larger blocks to the Keshena office.
The first set had a scale similar to the original block map, but contained new boundaries partitioning
the block into smaller and numbered indexed areas. The second set included a separate map, at much
larger scale, for each indexed area of the block. For some blocks, there were up to eight indexed
maps in the second set, enabling the user of the map set, in effect, to “zoom in” on the area of the
block where they needed more detail.

In 2 of the 32 non-response follow-up assignment areas, the indexed maps were also required, but
were not provided until local staff requested them. This contributed to a delay in completing those
assignment areas. However, the indexed maps, the speed with which the regional center prepared
them, and the reassignment of workers to other areas in the interim, enabled update/leave to continue
without significant delay. But with the large increase in the number of maps for 2000, it will be
impossible to reproduce and distribute such changes in a timely manner. In addition, because the
bureau determined which blocks needed index maps by a visual inspection of each initial block map, it
is doubtful that a similar process could be implemented easily in 2000 due to the volume of maps to
be used. Bureau officials stated that they have a team analyzing this issue, and the team will make
recommendations to address this problem later this summer. We will review those recommendations
when completed.


The bureau concurred with our recommendations to (1) ensure that the proper map spot assignments,
including housing unit/map spot numbers, have been accurately recorded in the bureau’s address list
databases, and (2) determine the actual sources of discrepancy between the update/leave maps and
their address register. The bureau has established an inter-divisional team to review all maps and
other geographic products. However at this time, it remains unclear whether the bureau’s actions will

                                                  9
U.S. Department of Commerce                                                      Final Report IPE-10753
Office of Inspector General                                                              September 1998




fully address our recommendations. In particular, we do not know whether the actual sources of the
discrepancy between the update/leave maps and the address register have been identified. The
bureau’s observation that the problems have not recurred provides little assurance that the problems
will not recur in 2000. As a result, we have asked the bureau to prepare an action plan that addresses
our remaining concerns.




                                                 10
U.S. Department of Commerce                                                                     Final Report IPE-10753
Office of Inspector General                                                                             September 1998




III.     Payroll/Personnel System for Census 2000 Needs to Be Evaluated

The bureau’s Pre-Appointment Management System/Automated Decennial Administrative
Management System (PAMS/ADAMS) will support payroll and personnel processing and provide
information required by the bureau’s management and operational personnel. For Census 2000, the
system will process about 4 million hiring actions13 and about 30 million time and expense forms,
provide reports and data outputs, and maintain historical data.

For the dress rehearsal and Census 2000, the payroll and personnel forms used by the bureau and
processed by PAMS/ADAMS include the “Application for a Census Job,” background questionnaire,
test answer sheet, employment eligibility verification, and the “Daily Pay and Work Record.” During
the dress rehearsal, field offices and local offices send the documents via overnight delivery to the
regional centers for scanning. The bureau’s reasons for selecting this system are:

         l        Clerical and technical support is reduced by scanning data instead of manually
                  keypunching data, and centralizing automation processing at the regional centers.

         l        Automation costs are reduced by scaling back or eliminating hardware and software
                  requirements for remote field offices.

         l        Information available to field offices, local offices, regional offices, and headquarters is
                  more timely and complete.

         l        The time between the end of the payroll period and check disbursement is decreased.

         l        The availability of data collected is improved by centralizing the storage of, and access
                  to, all field information at the regional offices.

PAMS/ADAMS uses image capturing and optical character recognition to scan and capture payroll
and personnel documents at the regional offices. Scanners, which are attached to personal
computers, use software that scans payroll and personnel forms, interprets scanned data using
recognition software, and identifies data fields, such as name and social security number, that the
software indicates are incorrect. Clerks then manually correct the scanned data fields using the actual
payroll and personnel forms.

During our inspection, the Chicago regional center’s PAMS/ADAMS displayed numerous incorrect
data fields from scanned payroll and personnel forms, forcing clerks to manually correct much of the
data, and in many cases, scan the same batch of forms again. We also found that the software
limitations for one of the PAMS/ADAMS reports need to be modified.




         13
           The bureau estimates that there may be as many as eight applications for every person hired. Therefore,
the system will have to process about four million applications, to cover the nearly 500,000 employees it anticipates
hiring between January 1997 and October 2001.

                                                           11
U.S. Department of Commerce                                                                        Final Report IPE-10753
Office of Inspector General                                                                                September 1998




PAMS/ADAMS scanning creates problems

During our April 1998 visit to the Chicago regional center, we found that after batches of documents
were scanned in, clerks spent many minutes correcting letters and numbers within data fields that
were misinterpreted by the scanning software. For example, the letter “c” may have been interpreted
as the letter “e.” Although clerks are expected to manually verify some data fields, they should not
have to spend significantly more time scanning and verifying than if they had manually keypunched
the data originally. The clerks stated that even with the Chicago regional center’s small volume of
forms, this is a major annoyance, and during non-response follow-up and integrated coverage
measurement, it could cause a serious backlog problem.

Regional Census Center clerks believe that the scanners are scanning data properly, but that the
character recognition software is too sensitive for operational use and needs further testing.
Specifically, many letters and numbers were misinterpreted by the software. Headquarters personnel
stated that funding constraints only allowed the software to be tested at the bureau’s beta site in
Suitland, Maryland, before its release for the dress rehearsal sites. Headquarters personnel believe
that the software’s search engine14 may be inadequate for large-scale operational use. If the search
engine does not meet the bureau’s needs, the bureau will have to purchase different software. To
address the PAMS/ADAMS problems, Census headquarters personnel sent two teams to the
Columbia and Sacramento regional centers to observe the problems with PAMS/ADAMS, perform
“time and motion” studies of scanning versus keying, and determine what options are available. In
addition, the bureau plans to perform an evaluation study of this issue at the conclusion of the dress
rehearsal.

During our subsequent visit to the regional center in July 1998, payroll clerks stated that scanning and
verification of new employee forms and current employee time sheets was still time-consuming. Since
April 1998, the clerks have experienced the same volume of corrections, stating that scanning and
verification of payroll batches is taking longer than keying each batch, which the bureau wants to
eliminate in 2000.

To compound the scanning problem, we found that the Chicago regional center only has one software
license for its two scanning systems. Regional center personnel stated that earlier in the dress
rehearsal both scanners were used, but that the bureau dropped one of the software licenses in early
June 1998 to save money while the new scanning system was evaluated and its problems corrected.
As a result, only one scanner can be used at a time. The other computer system can be used for
manually inputting payroll forms or processing payroll forms and applicant packages beyond the
scanning phase.15 In the meantime, the regional center has chosen to use its one scanner and
corresponding license to primarily input new employee forms, which take longer to input than payroll
forms because of multiple pages. Consequently, regional center personnel estimated that about 80


        14
             In this instance, a search engine is software that enables specific words or phrases to be recognized.
        15
          After payroll forms are scanned, each form goes through a recognition, verification, exporting, and
image uploading phase.



                                                             12
U.S. Department of Commerce                                                            Final Report IPE-10753
Office of Inspector General                                                                    September 1998




percent of the new applicant forms get scanned, while only 20 percent of the payroll forms are
scanned. The remaining 80 percent of payroll forms are keyed in by regional center clerks.

In addition, a new system problem emerged in June 1998 and has impacted clerk efficiency. After
about every third or fourth payroll batch is scanned and verified, the PAMS/ADAMS places a
scanned batch “on hold,” not allowing the batch to be exported. The clerks have temporarily
corrected this problem by rescanning the batch. The regional center clerks do not know why this
problem is occurring and have advised bureau headquarters of it. According to headquarters officials,
the bureau is working on a correction.

PAMS/ADAMS reporting needs refinement

“Selection certificates” list all candidates who are qualified for a position, and it is this list that bureau
managers use for determining who is available for open positions and who they want to interview.
PAMS/ADAMS will allow office managers to print only the first 25 names on a selection certificate.
The bureau’s personnel can view information about the other candidates on the computer screen but
cannot print the information. Manual viewing of data on a computer screen is very time consuming
because any information being viewed that is later needed to hire the person has to be handwritten on
another piece of paper. The bureau should reconfigure the PAMS/ADAMS software so that
information about all candidates on a selection certificate can be readily printed in ranked order.


The bureau reports that it modified PAMS/ADAMS to generate “Selection Records,” with up to 50
names of qualified applicants in rank order along with appropriate information needed by selecting
clerks to contact applicants, complete the interview guide, and make job offers. This action is
responsive to our recommendation.




                                                     13
U.S. Department of Commerce                                                       Final Report IPE-10753
Office of Inspector General                                                               September 1998



IV.    Major Problems Noted in the Advertising Campaign

For Census 2000, the bureau has initiated a national advertising campaign to raise public awareness
and motivate citizens to return questionnaires. While the advertising campaign will focus on year
2000, certain aspects of it were to be tested during the 1998 dress rehearsal. The bureau’s prime
advertising contractor hired an American Indian-owned advertising firm to target advertising for the
American Indian and Native Alaskan communities. Television and radio spots and some print
advertisements tested in the Menominee dress rehearsal were generally well received by Keshena
staff, the Complete Count Committee, and the post-dress-rehearsal focus groups of Menominee
citizens. Census used two 30-second television spots for the general market and one for the
American Indian market, all of which were well placed on three local television stations. However,
some advertising products, particularly paid print advertising, had content problems and were poorly
placed. In addition, there was no prior consultation and coordination with the local Complete Count
Committee and the tribal chairman. If the consultation had occurred, it may have minimized problems
of ad placement and poster content.

Print advertising campaign had content problems

Many of the prime contractor’s print and wall posters for the general public were drawings of various
peoples, including American Indians, portrayed as caricatures. One of those, a caricature drawing of
three American Indians, was made for the American Indian market. However, the head of the
bureau’s tribal liaison program advised against using this particular poster because it could be seen as
cartoon-like and stereotypical. She had two objections: (1) American Indians are sensitive to such
portrayals having suffered from stereotyping in the past and (2) such an advertisement might
undermine the campaign by implying that the concerns and interests of American Indians were not
being taken seriously. She felt the lighthearted nature of that particular drawing and other print
products was inappropriate given the seriousness of enumerating American Indians, who have lost
significant revenue and services due to the undercount in 1990. Due to her strong objection to the
drawing, Census management decided not to release the American Indian caricature, despite the
disagreement of officials in the bureau’s publicity office, the bureau’s prime contractor, and the
bureau’s subcontractor, all of whom wanted to test the ad during the dress rehearsal.

The prime contractor and subcontractor had been given less than three months to develop a national
campaign that usually takes six months. They did not, therefore, have a replacement poster when the
American Indian caricature was pulled. Instead, the prime contractor tried to fill this gap with a
generic rural farm scene dominated by a large cow that seemed to have little local appeal and no
meaningful connection to American Indians. This poster only appeared at the local supermarket and a
few other locations on the reservation (see Figure 3).




                                                   14
U.S. Department of Commerce                                                                  Final Report IPE-10753
Office of Inspector General                                                                          September 1998



Figure 3




Source: Advertisement developed for Bureau of the Census, 1998.

As a supplement, the bureau provided smaller black, white, and yellow posters based on the prime
contractor’s artwork depicting a census form. This advertisement was originally intended for large
billboards, and therefore had limited content (see Figure 4). The Keshena office and regional center
staff, Menominee Complete Count Committee members, and local tribal members did not believe that
these posters would motivate American Indians to fill out census forms. Unfortunately, with little
else to use, the bureau’s staff and volunteers widely distributed these posters to tribal offices and
businesses on the reservation.16




        16
           This is in stark contrast to 1990, when the posters were done pro bono by American Indian artists. The
indigenous and authentic themes made some of those posters collectors’ items. One poster, Calling the Eagles,
Name Your Tribe, Answer the Census, 1990, now hangs in the Smithsonian National Museum of American Art as
a vivid example of the persuasiveness of poster art.



                                                         15
U.S. Department of Commerce                                                     Final Report IPE-10753
Office of Inspector General                                                             September 1998



Figure 4




Source: Advertisement developed for Bureau of the Census, 1997.

To compound the content problem, print ads in posters and newspapers, which were devised for
Census 2000, never indicated that dress rehearsal Census Day was April 18, 1998. Although
newspaper articles and Census brochures explained the dress rehearsal, the 1998 Census Day was
never mentioned in any paid advertisement, reducing the effectiveness of the dress rehearsal posters.
Both the partnership specialist and the Complete Count Committee coordinator labored to overcome
this lack of focus on the dress rehearsal by placing articles in the Menominee Nation News and by
writing “Census Day-April 18, 1998,” directly on the posters.

Another content problem emerged when the Menominee focus group participants noted that the
grandmother in an otherwise effective print ad was identifiably Navaho or Southwestern Indian by her
dress. Participants would have preferred a Menominee Indian. While there are limits to how
differentiated the targeted advertising can be, attention to regional variation, especially between
Indians of the Great Plains, the Northwest and Southwest, is needed. The prime contractor and
subcontractor intend to conduct regional focus groups for Census 2000 to help focus on this issue.




                                                      16
U.S. Department of Commerce                                                                 Final Report IPE-10753
Office of Inspector General                                                                         September 1998



Placement of radio spots and print advertising was poorly executed

Ad placement was also an issue. First, the prime contractor broadcast the targeted radio spot only on
the local “golden oldies” station, whereas the subcontractor wanted to use at least five additional
stations to reach a broader and younger audience. Traditionally, the prime contractor relies on
market research to make its decisions, such as customer profiles for each radio station. The prime
contractor made its decision based on the general demographics for Wisconsin, because more detailed
data to justify the additional radio stations for American Indian areas is not available. Though the
subcontractor was better positioned to know the most effective marketing methods for reaching
American Indians, it was not able to convince the prime contractor.17 Local bureau staff agreed with
the subcontractor that the hard-to-count target audience was more likely to be reached by placing ads
with a number of stations.

Second, although the subcontractor purchased advertising space from stores that routinely sell
billboard and window space around Menominee County, most of the 25 ad placements ended up in
the predominantly white community of Shawano,18 or in other small towns and hamlets even further
away. The Complete Count Committee coordinator and the partnership specialist raised the issue of
ad placement with the prime contractor, sending the prime contractor a detailed list of commercial
and public places on the reservation where information is posted. However, the ad purchases off the
reservation had already been made. In addition, a two-page spread of the caricatured ads was placed
in a Shawano newspaper, despite the fact that a high percentage of tribal members do not read that
newspaper. Much of the problem of ad placement could have been avoided if the prime contractor or
subcontractor had sought local feedback prior to placing the ads.

Belatedly, the subcontractor recognized the lack of billboard space on the reservation, and contracted
for a truck with two large billboards bearing the phrase, “The Future Takes Just a Few Minutes to
Complete. This Is Your Future: Don’t Leave It Blank,” to drive around the reservation (see Figure
5). Although the billboards were large, once again there was no mention of the 1998 dress rehearsal.
When the Complete Count Committee coordinator called the prime contractor to inquire about the
truck’s availability for upcoming events on the reservation, she discovered that the truck was already
scheduled by the contractor to spend most of the time off the reservation in Shawano. The
coordinator was able to reschedule the truck for three weeks on the reservation. It should be noted
that, although the coordinator corrected this problem, prior local consultation by the prime contractor
probably would have been prudent. Other tribal communities may not have local committee members
who are quite as adept in working with the media.



        17
           Although the prime contractor and subcontractor are working together, a member of Census’ American
Indian and Alaska Native Advisory Committee recently noted that communication between the bureau, the
Advisory Committee, the prime contractor, and subcontractor could be improved. The subcontractor had not yet
consulted with the Chair of the American Indian and Alaska Native Advisory Committee, even though both parties
are only a few blocks apart in Albuquerque, New Mexico.
        18
          Shawano is seven miles from the reservation where tribal members often go shopping, but only for a few
hours each week.



                                                        17
U.S. Department of Commerce                                                      Final Report IPE-10753
Office of Inspector General                                                              September 1998



Figure 5




Source: Complete Count Committee Coordinator photograph, 1998.


The tribal chairman was not consulted on advertising

The prime contractor did not initially consult with the chairman of the Menominee tribal government,
who expected to have more local input on media issues. Like the bureau’s tribal liaison program
officer, the tribal chairman believes a serious, focused campaign is needed for American Indians,
emphasizing the importance of the Census and reducing their fears about enumeration. The tribal
chairman in speaking about the census, told the Chicago Tribune, “Our people are extremely
suspicious, extremely hostile to federal agents. Federal agencies mean criminal investigations. They
mean nothing but heartache and financial woes to tribal members, that’s what they represent.” In
order to enumerate those tribal members who are naturally suspicious and hard-to-reach, the
chairman believes that a serious campaign should address their misgiving about the census, including
the issue of confidentiality, by emphasizing that bureau procedures prohibit data about individuals or
households from being sought or released for non-census purposes.

On the other hand, bureau officials at headquarters, the prime contractor, and the subcontractor
believe that the advertising campaign should be based on market research rather than on individual
responses. However, we believe that paid advertising at Menominee, and by extension to many other
reservations, should be crafted to address local misgivings about the census and supported by all
relevant local parties. The shortcomings in the bureau’s “research-based” advertising campaign were
noted by the Keshena and Chicago office staff, the Complete Count Committee, and members of the
tribal government. For Census 2000, the bureau should ensure that there is closer coordination and
prior consultation between the tribal leaders, tribal liaisons, partnership specialists, the Complete



                                                     18
U.S. Department of Commerce                                                         Final Report IPE-10753
Office of Inspector General                                                                 September 1998



Count Committees, the prime contractor, and the subcontractor to strengthen the advertising
campaign.


In its response to our draft report, the bureau outlined a number of steps it is taking to ensure that the
advertising campaign is based on input and insights from a number of stakeholders, including tribal
leaders, tribal liaisons, and Complete Count Committees, as well as advisory committee members.
The bureau’s partnership specialists will meet with every federally recognized American Indian Tribe
to plan, coordinate, and consult on paid advertising and other issues. The regional offices will play a
key role in gathering and passing along information to the Census 2000 Publicity Office. These
actions are responsive to our recommendation. In its action plan, the bureau should provide an
update and timetable for specific steps it will take to address our recommendation.




                                                   19
U.S. Department of Commerce                                                                   Final Report IPE-10753
Office of Inspector General                                                                           September 1998



V.     Computer Specialist Positions Were Difficult to Fill

Recruiting efforts at the regional center were slowed because salaries for key computer specialists
were not competitive with those in the private sector. Because the dress rehearsal and Census 2000
rely heavily on automation, computer personnel with specific skills are needed. The bureau
determined that the 12 regional centers need 5 computer specialists each, or 60 nationwide, for
UNIX,19 local area networks, and other computer activities to support both Census 2000 and dress
rehearsal operations in fiscal year 1998. In addition, we noted that bureau headquarters does not
have a timely report of staffing levels at the regional centers and for management positions at the local
offices.

The bureau’s salaries for key positions are not competitive

Recruiting for the five computer specialist positions at the Chicago regional census center and across
the nation has been difficult. While the Chicago regional census center has been able to fill all 5 of the
computer specialists positions, only 39 of the 60 nationwide computer specialist positions for fiscal
year 1998 have been filled as of August 7, 1998 (see Table 1). If this problem continues to exist for
Census 2000, when the bureau plans to hire 108 computer specialists nationwide, the bureau may be
faced with a significant lack of computer expertise.

Regional center personnel stated that the reason for the hiring problems was that the bureau’s salary
ranges were not competitive with the private sector. For example, initially the bureau offered a salary
of $40,000 to $48,000 per year for a UNIX computer specialist with at least one year of experience.
However, officials at bureau headquarters estimated that the same position in the private sector pays
$10,000 to $15,000 more per year. We observed a recruiting magazine for the Chicago area that
advertised the bureau’s UNIX computer specialist position at $40,000 to $48,000, placed directly
opposite a private firm’s advertisement for a UNIX technical consultant paying $40,000 to $65,000.




       19
            UNIX is a computer operating system with unique command language and utilities.



                                                         20
U.S. Department of Commerce                                                        Final Report IPE-10753
Office of Inspector General                                                                September 1998



Table 1: Regional Census Center Staffing in Fiscal Year 1998 as of August 7, 1998

                                                     Nationwide            Chicago Regional Census
                                                                                   Center
    Computer Specialist Positions              Authorized    Filled        Authorized         Filled

    UNIX Computer Specialists                          24             10              2                2a
    Network Computer Specialists                       12              9              1                1
    Other Computer Specialists                         24             20              2                2
    Total                                              60             39              5                5
a
    One position was filled by a contractor.

The bureau attempted to address salary disparities by offering an “administratively determined pay
rate” for the UNIX computer specialist positions. All regional centers have the option to offer this
pay rate. For example, the pay rate for a UNIX computer specialist without experience would start at
about $37,000 per year, increasing to $43,000 annually after year one, and to $50,000 annually after
year two. By using an administratively determined pay rate, the bureau hopes to recruit recent
college graduates who are seeking the work experience and faster pay raises after the first year. The
pay rate provides a higher starting salary for a candidate with no experience and offers guaranteed
pay increases, after year one and year two. In addition, for those UNIX computer specialists with
prior work experience, the bureau offers a higher starting salary and step adjustments commensurate
with experience, but does not offer guaranteed pay increases after year one.

Bureau officials believe that the administrative pay rate has been effective for some regions, but as of
August 7, 1998, the bureau has been able to fill only 10 of the 24 UNIX computer specialist
positions. On the other hand, in Chicago, both UNIX computer specialist positions have been filled
even though the administratively determined rate was not offered. One of the two UNIX computer
specialist positions in Chicago was filled by a contractor; and the other was filled with a less
experienced Grade 9 UNIX computer specialist, rather than the advertised Grades 11 or 12.

For all the computer specialist positions, the bureau is trying to increase the number of qualified
candidates by paying candidates up to a 15 percent signing bonus to be paid within 60 days of starting
service. An employee must work one year or pay back a portion of the signing bonus for the time
they did not work. The bureau began offering this salary package in May 1998, and if it is not
effective in recruiting qualified candidates, the bureau will consider contracting for the network
computer specialist positions. By the end of August 1998, the bureau expects to evaluate the
feasibility of contracting for these positions.




                                                     21
U.S. Department of Commerce                                                         Final Report IPE-10753
Office of Inspector General                                                                 September 1998



Recruiting report is not timely

Bureau headquarters does not have a timely report of staffing at the local offices and regional centers.
Although the bureau has a regional center “Staffing Summary” report to monitor hiring at those
offices, this report is manually updated every two weeks using data that is four weeks old. The
bureau’s geography branch in the field division has developed a more timely weekly status report by
region, entitled the “Geography and Partnership Staffing Report,” but it only applies to geography
and partnership positions, and again, it is prepared manually by collecting current data from the
regional centers by E-mail. Bureau officials recognize that they need a better reporting tool to
monitor the progress of all staff recruiting at the regional centers and local offices. In July 1998, the
bureau implemented a new on-line regional center staffing report to be updated daily by a regional
center staff person. The report will be maintained on a network shared by the regional center and
headquarters, enabling headquarters to obtain current regional center staffing information anytime.
The bureau needs to ensure that this automated nationwide report is accurate and timely and reflects
all hiring information for regional center staff and local office manager positions.


In its response to our draft report, the bureau stated that it has redesigned its staff reporting system to
provide more timely, accurate information on staffing levels in the Regional Census Centers. The
system will be expanded to include Local Census Office management positions. Using this new
reporting system, the Regional Census Centers should be able to update files as individuals are hired
and headquarters should be able to generate staffing reports as needed. This action is responsive to
our recommendation.




                                                    22
U.S. Department of Commerce                                                       Final Report IPE-10753
Office of Inspector General                                                               September 1998



VI.    Delivery of Office Materials Needs to Be Improved

During our review of the Keshena office, we found a number of problems pertaining to supplies and
promotional materials. First, training manuals and initial supplies for new operations were being
delivered just as the operation was to begin leaving little time for advance preparations and setup.
Second, some equipment, furniture, and supplies were being delivered without notification, wasting
the time of the personnel trying to accommodate the deliveries. Third, some quantities of supplies for
Keshena had not been properly estimated causing an under supply. Finally, we noted Chicago
regional center supplies sent by vendors were not always being correctly routed to the proper person,
and some regional center supplies were being sent to another office by mistake. If these problems are
not corrected, they could adversely impact Census 2000.

Training manuals and other census materials for new operations are not always delivered with
sufficient lead time

We noted that the Keshena office did not receive training manuals until just before each new dress
rehearsal operation. During our inspection, training manuals for non-response follow-up arrived on
the Friday before the Monday of scheduled training, allowing the area manager very little time to read
the training manual before performing the training. More importantly, without knowledge of when
the training manual was to arrive, it was difficult for the area manager to plan and prepare for the
training.

Bureau officials explained that the training manuals for Census 2000 were still being written during
the start up of the dress rehearsal. Due to late decisions on training manual content and approach, the
manuals were not delivered until just before the training sessions. To prevent potential training delays
during Census 2000, the bureau intends to require that all training manuals be received by the data
capture center in Jeffersonville six months prior to the deadline for delivery to the regions. However,
we recognize that the bureau may need to make updates and improvements to the training materials
closer to the training dates for Census 2000. If the training manuals are still being updated near the
training dates for Census 2000, the bureau needs to provide better notification to the regions
concerning when the training manuals can be expected to be delivered, so that local managers can
make the appropriate arrangements for assembling the materials and providing quality control.

Also, although the non-response follow-up assignment packets arrived in Keshena at the beginning of
the initial non-response follow-up training, the associated maps did not arrive until later in the week.
The maps did not arrive in time for tentative assignments to be made to trainees so that they might
make use of the material during training. When the maps did arrive, the crew leaders reported having
to spend the night numbering each map for each assignment to avoid possible mix-ups later on and to
have the packets ready for the staff the next day. However, the late arrival of the maps did not
prevent the assignments from being made or delay the enumerators from beginning their scheduled
work.




                                                   23
U.S. Department of Commerce                                                       Final Report IPE-10753
Office of Inspector General                                                               September 1998



Equipment, furniture, and supplies were delivered without notification

Keshena and regional center personnel stated that they did not always know what equipment,
furniture, and supplies were to be delivered and the expected delivery date. Many times items arrived
without prior notification. This made it difficult to plan the work and wasted staff time on trying to
accommodate the deliveries. To address this problem, the bureau has made short-term corrections
and is preparing a long-term plan. In February 1998, the bureau hired three logisticians to manually
track the arrival of supplies, equipment, and furniture delivered from all bureau locations including
headquarters, the data capture center in Jeffersonville, the General Services Administration, and
commercial vendors. By telephone, the logisticians are obtaining expected arrival dates and times
from the sender of the supplies, equipment, and furniture and are then forwarding this information to
the recipient of the delivery. Since this process has been implemented, the Chicago regional center
has noted that delivery status has improved because the regional center is much more informed about
the arrival of expected supplies, equipment, and furniture. On a long-term basis, the bureau has
replaced this manual process with an on-line tracking system where the status of deliveries, including
quantities and delivery dates, is tracked. The bureau implemented this on-line tracking system in June
1998. This system will enable the regions to provide real time feedback to bureau headquarters about
deliveries, as well as schedule their work around anticipated deliveries.

Quantity of supplies is not always commensurate with needs

The quantity of supplies for specific Menominee dress rehearsal operations has sometimes been
significantly more or less than needed. For example, the Keshena office did not receive enough
training manuals for update/leave training, requiring them to request more copies from the data
capture center in Jeffersonville. The bureau initially determined that 12 training manuals for the
Keshena office would be sufficient based on twice the number of people expected for training. The
bureau assumed that six people would be needed for the operation and would be trained during the
initial week, and that another six would be trained during the next week as replacements. However,
the bureau’s estimate did not include copies of training manuals for selected regional center staff and
the field operations supervisor. As a result, the Keshena office had to order an additional eight copies
from Jeffersonville to cover all their needs. This subsequent order of manuals was received in time
for the training.

While update/leave training and operations for Menominee were not affected by the shortage of
manuals, the inability to properly estimate the number of training materials at dress rehearsal has
implications for Census 2000. For example, if training manuals are unavailable during any training for
Census 2000, this could adversely affect the schedule and quality of the decennial census. In order to
eliminate future shortages, bureau officials are considering sending training materials for three times
the number of individuals expected for training. However, this could result in significant oversupply
and expense. We believe that for Census 2000, the bureau should develop and implement a more
accurate system for estimating the number of training manuals needed by trainees and staff for initial
training and replacement training. We also found that the Keshena office ran out of non-response
follow-up training evaluation forms, reducing the number of comments the bureau received from
enumerators on its training format and content. Headquarters underestimated the number of forms
needed, and Keshena staff did not know the count was low until it came time to use the forms.


                                                  24
U.S. Department of Commerce                                                        Final Report IPE-10753
Office of Inspector General                                                                September 1998



Some Regional Census Center supplies and promotional materials were not routed correctly

We found two problems with the Chicago regional center’s flow of supplies. First, some supplies
sent by vendors are not being correctly routed to the appropriate regional center person because the
bureau does not consistently follow the same procedures when ordering supplies from vendors. The
name of the census operation is the primary point of reference for routing a delivery once the
shipment has been received by the regional center. For example, a package with a packing slip
identifying the dress rehearsal operation would be correctly routed to the area manager for
Menominee. However, the bureau is not always providing vendors with the name of the census
operation. As a result, some vendors are able to specify the name of the census operation on the
packing slip, while other vendors are not. Without the name of the census operation on the package,
it is difficult to identify the responsible person within the regional center to receive the delivery.
Determining the appropriate recipient causes some delivery delays and wasted time for regional center
administrative staff.

This problem persists even though the bureau has procedures in place to minimize deliveries that do
not specify a census operation. For example, the bureau requires all procurement requests sent to
vendors by bureau headquarters personnel to specify a name and applicable census operation. In
addition, if the name and operation are not provided on the procurement request, the bureau attempts
to provide this information to the vendor prior to shipment. However, the bureau is not contacting all
vendors prior to shipment, and as a result, some deliveries from vendors do not specify an operation.
The bureau needs to establish consistent policies and procedures to ensure that all deliveries are
promptly routed to the proper individual once deliveries have been received by a census office.

The second problem is that some supplies designated for the temporary regional center in Chicago are
being incorrectly sent to the regional office, which is about 20 miles away. The regional office has
been rerouting the deliveries back to the regional center, with one or two day delays. Bureau officials
stated that prior to the regional center opening in February 1998, some supplies and equipment were
sent to the regional office in order to meet delivery deadlines. Bureau officials emphasized that since
the regional center opened, headquarters no longer routes regional center deliveries to the regional
office. However, regional center personnel stated that a few deliveries intended for the regional
center were still incorrectly delivered to the regional office. This will be a larger problem for Census
2000, because the bureau plans to deliver some supplies and equipment to the regional centers prior
to the field offices having formal addresses. Therefore, the bureau should implement policies and
procedures as soon as possible to reduce the volume of supplies and equipment delivered to the
wrong location, particularly after the proper offices for the deliveries have opened.




The bureau concurred with our recommendations to (1) develop and implement a more accurate
system for estimating the number of training manuals needed by trainees and staff for initial and
replacement training and (2) establish consistent policies and procedures to ensure that all deliveries
are promptly routed to the proper individual and reduce the volume of supplies and equipment
delivered to the wrong location. First, the bureau said that it had established a new, automated on-



                                                   25
U.S. Department of Commerce                                                     Final Report IPE-10753
Office of Inspector General                                                             September 1998



line tracking system to enable the regional offices and bureau headquarters to communicate better and
resolve shipping and supply needs, including training manual deliveries. Second, the bureau reported
that it has implemented an RCC Administrative Memorandum advance notification process to
improve delivery problems. In addition, for Census 2000, materials and kits will be packaged
centrally at the Jeffersonville National Processing Center and shipped to the regions, rather than
assembled on-site at the local offices, as was done in the Dress Rehearsal. These actions, if properly
implemented, should address our concerns. The bureau should provide additional details in its action
plan.




                                                 26
U.S. Department of Commerce                                                                     Final Report IPE-10753
Office of Inspector General                                                                             September 1998



VII.    Partnership Effort Needs to Be Sustained Throughout the Dress Rehearsal Activities

For Census 2000, the bureau plans to incorporate active partnerships with state and local
governments, community organizations, businesses, religious congregations, and the media to
increase participation and reduce the undercount. The partnership concept stems from bureau
officials’ recognition that a decennial census is too large a task for bureau staff alone. Complete
Count Committees will enlist local community, religious, and business assistance while tribal
government liaisons will ensure that tribal concerns and interests are addressed.

The partnership effort has made significant contributions to Menominee dress rehearsal operations to
date. Specifically, we found that the Menominee tribal government liaisons and the Complete Count
Committee20 have been active and productive volunteer partners. The Menominee tribal government
liaisons have functioned as unpaid technical advisors and are knowledgeable end-users of census data.
They have been able to correct, redraw, and update address lists and feature boundaries on Census
2000 maps, and explain operations to the tribal government and tribal members.

In addition, the committee members and the regional center’s partnership specialist assisted dress
rehearsal operations by (1) placing notices in church bulletins, (2) discussing the dress rehearsal on
various radio shows, (3) answering reporters’ questions, (4) mailing Census 2000 announcements in
tribal government employee pay envelopes, (5) arranging locations for Be Counted boxes and staff
for questionnaire assistance centers, (6) helping target publicity and promotional efforts, and
(7) adding a Census 2000 presentation to a tribal council’s meeting. The committee also organized an
impressive dress rehearsal kick-off ceremony at the Menominee Indian High School and sponsored a
poster contest at the Neopit Intermediate School. These youth outreach efforts emphasize the
importance of Census 2000 to students so they will encourage their parents and family members to fill
out their questionnaires.21 Regional center officials believe that an effective partnership has been
formed between the bureau and the Complete Count Committee. Through these activities, the
committee has helped the bureau raise community awareness.

Despite these positive efforts, we noted that the committee was slow to support non-response
follow-up and did not sufficiently understand integrated coverage measurement operations. While it
may be unreasonable for any Complete Count Committee to fully absorb the complexity of the
census, the Menominee committee lacked an overview of the full range of local census operations and

        20
           The Menominee committee includes the tribal coordinator; tribal liaison; tribal legislator; tribal
government personnel manager; the superintendent of the Menominee Indian School District; representatives from
the Menominee County office, South Branch community organization, and the religious community; and
representatives from Menominee Enterprises, the tribally-owned supermarket, the casino/bingo/hotel complex, and
the Woodland Youth Center. Other community members have also participated in dress rehearsal activities.
        21
           However, the superintendent of the Menominee School Board was disappointed that Census 2000
teaching materials from a subcontractor to the bureau’s prime contractor for advertising were delivered too late to
allow teachers to gear up for dress rehearsal Census Day. This meant that fewer teachers saw or requested these
materials, such as a very large wall-sized Census 2000 map (provided by the subcontractor as part of the teaching
kits). Thus, much of the anticipated gain of teacher participation was lost.




                                                           27
U.S. Department of Commerce                                                          Final Report IPE-10753
Office of Inspector General                                                                  September 1998



their interactions. Bureau staff briefed tribal members at a September 1997 workshop and provided a
timetable of key activities and ongoing coordination. However, the bureau did not reiterate and
reinforce information about non-response follow-up and integrated coverage measurement operations
sufficiently to the committee, nor specifically solicit its support in advance for the followup activities.
Thus, the committee did not inform county residents about ongoing census activities and continue to
encourage them to keep their doors open to enumerators.

Although the committee had a flurry of activities through the dress rehearsal Census Day, we learned
that four of the five most currently active committee members believed their job was largely done on
April 18, 1998. Committee members seemed content to rely on mail-in response rate as a test of their
efforts, and they expressed little concern about the two upcoming operations, non-response follow-up
and integrated coverage measurement. In June 1998, we learned from further conversations with
tribal officials, that committee members were still not fully aware of the duration or extent of census
operations that would continue in Menominee County until December 15, 1998. Committee members
only became aware of non-response follow-up shortly before that phase was to begin. The committee
then quickly put out information about the operation in both a mass mailing to county residents and a
memo that was inserted in tribal employees’ salary envelopes. With earlier notice, however,
committee members believed they could have done more.

Furthermore, committee members appeared unaware of the integrated coverage measurement
operations underway during our June visit, until we raised the subject with them. Integrated coverage
measurement operations were, therefore, not integrated into any of the committee’s public
announcements. Although bureau documents listed all the major operations, we question whether the
bureau adequately emphasized the importance of a sustained partnership effort to committee members
and community leaders. Bureau officials at headquarters stated that committee involvement was
supposed to end on Census Day. However, given the modest questionnaire response rate in
Menominee, it was clear to the local office managers and staff that committee efforts should be
sustained. In any case, bureau staff and the committee coordinator were focused on one stage at a
time, and this prevented the coordinator from actively planning and executing an integrated approach
of committee activities to encompass the critical non-response follow-up and integrated coverage
measurement processes, when census workers are still making sustained efforts to complete the
count. The bureau should advise the Complete Count Committees to make every effort to sustain
their work throughout all Census operations. Specifically, the committee should address any specific
local or tribal barriers that may exist to getting everyone to participate in the census, reiterate the
importance of Census 2000 to collective tribal interests, and encourage the American Indian
community to participate in the crucial non-response follow-up and integrated coverage measurement
phases.


The bureau reports that it has recently mailed to every local jurisdiction its new Census 2000
Complete Count Committee Handbook for Local Governments. This provides guidelines for
Complete Count Committees to follow through Census 2000, including post-Census Day operations.




                                                    28
U.S. Department of Commerce                                                        Final Report IPE-10753
Office of Inspector General                                                                September 1998



The bureau is also planning to cover the need for continued involvement of the Complete Count
Committees in its required training sessions as a priority matter for partnership staff. These actions
are responsive to our recommendation.




                                                   29
U.S. Department of Commerce                                                       Final Report IPE-10753
Office of Inspector General                                                               September 1998



VIII. Integrated Coverage Measurement Procedures and Reporting Need Improvement

Integrated Coverage Measurement operations are intended to act as an independent quality check on
information being gathered by the regular census enumerators. ICM creates a separate list of housing
units in particular areas for comparison with the census list. Differences between the two lists are
resolved by conducting interviews at ICM housing units and comparing information with that
obtained by census enumerators on the same household. This information will be used to estimate the
number of people and housing units missed or counted more than once. During independent address
listing, field staff canvass the ICM blocks and create a list of all housing units, independent of all
census operations. During Housing Unit Followup operations, the differences between the
independent address list and the update/leave list are reconciled, by comparing information recorded
on both lists and maps, and performing a visual check of housing unit locations and other information.
Brief interviews with occupants of housing units are also sometimes required. During our inspection,
the primary part of ICM independent address listing was already complete, and the housing unit
followup was underway.

We noted that while ICM and dress rehearsal operations are designed to be independent, one ICM
lister showed an ICM map to a resident being interviewed, which, according to procedures, is not
appropriate. Also, an ICM enumerator history report incorrectly excluded the name of an employee
with dress rehearsal work history. Although these incidents, in isolation, are minor, they indicate that
the bureau should develop and implement strict guidance for Census 2000 to ensure that the two
operations are completely separate.

ICM materials were sent to the Keshena office instead of to personal residences

While in Keshena, we met with the ICM crew leader twice, observed an individual housing unit
followup case in the field, questioned numerous full-time and temporary bureau employees
concerning what they knew about ICM operations, and had extensive conversations with the Chicago
regional ICM coordinator. Temporary bureau employees correctly identified themselves as either
working for the "Census" or for "ICM." All temporary employees understood that ICM is also run by
the bureau, but that ICM and the census are separate operations. More importantly, temporary
employees working for the census appeared very aware of how important it was that they not
compromise ICM independence by getting involved in ICM operations. While few bureau employees,
including the ICM employees, could articulate the precise role that the ICM operation might play in
the census, they viewed ICM as a "quality check" on the regular census operations.

To perform ICM’s quality check on Census 2000, the bureau needs to ensure that ICM and census
operations are independently conducted. However, we found that the Keshena office is used for ICM
postal and express deliveries and correspondence with the Chicago regional center. According to
ICM headquarters officials, all ICM materials are to be both shipped from and received at the
personal residences of ICM staff. Regional ICM officials stated that ICM materials for Menominee
were being received by and sent out of the Keshena office for three reasons. First, most of the local
ICM staff have post office boxes for addresses, and the overnight delivery services cannot deliver
materials without a “mailing address” such as a house number and street name, which the Keshena
office has. Second, because ICM materials are confidential, tracking them is very important, and the


                                                   30
U.S. Department of Commerce                                                        Final Report IPE-10753
Office of Inspector General                                                                September 1998



overnight delivery services do this much better than regular mail delivery. Third, ICM personnel
found that when some materials needed to be delivered quickly, it could be accomplished better
through overnight delivery than regular mail delivery.

Even though all materials have reportedly been sent and received sealed and clearly labeled for either
“ICM” or “census,” the bureau needs to determine whether its policy that all ICM materials are to be
both shipped from and received at personal residences is valid for rural areas. If the policy is not valid
for rural areas, the bureau needs to develop procedures identifying how office personnel will handle
the collocation of ICM and census materials in 2000.

ICM employees were slowed by update/leave maps

Because ICM staff rely on update/leave maps, the problems with the update/leave maps as discussed
on page 7 of this report affected housing unit followup operations. With numerous handwritten
corrections made by bureau address listers directly on update/leave maps, housing unit followup
listers had difficulty reading copies of the maps–including the many handwritten map spot numbers.
The crew leader stated that the lack of clarity did not prevent any housing unit followup operations
from taking place, but the listers required additional time to discern handwritten map spot numbers
accurately.

ICM address lister inappropriately showed interviewee ICM map

While observing an actual housing unit followup case, an ICM lister verified the location of a housing
unit on an "ICM Block Cluster Map" by showing the map to the occupant of the housing unit,
pointing to the unit's map spot, and asking whether that was the correct location of the house. We
are concerned that if the occupant noticed the title of the map, the occupant might have been able to
infer that his housing unit was within the ICM sample. However, there was likely no adverse effect of
showing the map since the interviewer did not identify the unit as within the sample and the map itself
does not explicitly identify which block on the map is within the sample. Regardless, we remain
concerned about this apparent lapse in procedures.

ICM enumerator history report incorrectly excluded employee with dress rehearsal work experience

The enumerator history report is used to designate assignment areas for ICM housing unit followup
operations and is meant to be a list of all ICM employees with dress rehearsal experience. To
maintain independence between ICM and dress rehearsal operations, employees with dress rehearsal
experience may be hired for ICM housing unit followup operations, but these employees may not
work on the same assignment areas as they did for the census. We reviewed an ICM enumerator
history report that incorrectly excluded information about an employee’s prior work on dress
rehearsal operations. If the enumerator history report does not have accurate data about a person’s
prior dress rehearsal activities and, in particular, what geographical assignment areas were worked,




                                                   31
U.S. Department of Commerce                                                     Final Report IPE-10753
Office of Inspector General                                                             September 1998



there is a risk that an ICM employee with dress rehearsal work experience may be assigned to the
same assignment area for ICM housing unit followup operations. The result would be a possible
compromise of the independence of the ICM operation.22

Fortunately, the employee’s dress rehearsal work experience was identified by ICM personnel even
though the automated system failed and the enumerator history report was incomplete. Personnel at
bureau headquarters are investigating how the reporting gap occurred and how to improve internal
system controls. The bureau needs to immediately correct the problem in the enumerator history
report to ensure that prior dress rehearsal experience is known about any persons hired for ICM
operations.


The bureau concurred with our recommendation concerning the shipping of integrated coverage
measurement materials. Although the bureau reaffirmed its policy that ICM sample-specific materials
are to be shipped from and received at personal residences, we found no assurance that this policy is
carried out in practice. During our review, we found materials had been shipped to places other than
personal residences. The bureau needs to document how it will enforce this policy in its action plan.

The bureau also concurred with the intent of our recommendation to ensure its guidelines for
maintaining integrated coverage measurement independence are carried out. The bureau maintained
that the instance where the enumerator showed the respondent the map was not a breach of
independence. The bureau explained that from time to time when there was no unique identifiable
address, the enumerator needed to show the respondent the map to help determine whether the house
was within the block cluster.




       22
            Modernizing the U.S. Census, National Research Council, 1995.



                                                         32
U.S. Department of Commerce                                                                    Final Report IPE-10753
Office of Inspector General                                                                            September 1998



IX.     Other Census Dress Rehearsal Programs Offered Lessons Learned

During our work on the dress rehearsal operations, we noted several other problem areas that need
the bureau’s attention. We found that some update/leave procedures were inefficient and some
training was repetitive. We also noted that there were problems with the bureau’s selection criteria
for Targeted Non-Sheltered Outdoor Locations enumeration, the role and purpose of the Be Counted
program were not widely understood by Keshena office staff, and volunteers at the Questionnaire
Assistance Centers were receiving few requests for assistance.

A.      Procedures and assignments required some unnecessary driving and cost

Update/leave requires listers23 to revise the bureau’s mailing list while delivering questionnaires.
Procedures for this operation require that listers visit block units in the order they are listed on the
“address register.” Unfortunately, the block numbering sequence in Menominee did not always
follow a geographic route that the listers would normally take while driving block to block. In areas
around Legend Lake in Menominee County, where the shorefront creates a large number of inlets and
peninsulas, following the numerical sequence on the lists required listers to double-back repeatedly.
We observed this problem first-hand when we participated in update/leave operations during a brief
initial visit to Menominee in March 1998. Also, during our second visit to Menominee, we
interviewed the Keshena office staff about update/leave operations and reviewed maps used during
operations.

The regional center area manager decided to relax the sequencing requirement and let the crew leader
decide when it was more appropriate to allow a lister to proceed with block clusters geographically
rather than numerically. Listers reported saving a great deal of time as a result of the decision. The
original procedures may have been intended as an extra precaution to ensure quality, but the revised
procedure may also have had an unintended positive impact on quality, particularly in the Legend
Lake area where, according to staff, staff morale and efficiency significantly improved. We believe
that the bureau should reevaluate the requirement that listers deliver questionnaires in strict adherence
to the order listed on their address register, and determine under what circumstances, if any, it might
be permissible for a crew leader or other appropriate staff member to approve delivery in some other
order.

In addition, the initial assignments for non-response follow-up were assigned to enumerators without
regard to where they lived. This violated the regional director’s policy of having temporary staff
members work primarily in the areas and neighborhoods where they live. According to the local staff,
the initial assignments required significant amounts of additional travel time and cost. After regional
center officials complained about the production rate, staff were subsequently given assignments
closer to their homes to reduce travel times.




        23
             “Lister” is the term used during the update/leave operation. “Enumerator” is used during non-response
follow-up and integrated coverage measurement.



                                                           33
U.S. Department of Commerce                                                       Final Report IPE-10753
Office of Inspector General                                                               September 1998



Furthermore, the Keshena staff reported that their assignment areas overlapped geographically, so
that different enumerators found themselves visiting housing units in the same neighborhoods and
even on the same block. This suggests that assignment areas could be created differently to increase
the efficiency of follow-up and the effectiveness of efforts to collect information from neighbors by
reducing the chance that multiple bureau employees will visit the same household to collect last resort
information on households.

B.     Training can be improved

New employee orientation was repeated for current employees

At the beginning of lister and enumerator training sessions for each new operation, employees are
given about 1-2 hours of training in basic administrative procedures including how to complete
certain federal employment forms and daily pay records. However, several employees who had
worked on earlier dress rehearsal operations participated in, and were paid for, training that they had
already received. There may be some benefit in repeating training for some employees, such as
reinforcing administrative procedures or fostering an atmosphere of teamwork in a short period. But
it is hard to justify the cost, especially during Census 2000 when the total number of trainees will be
so much greater. The bureau needs to develop a training plan that is flexible enough to avoid
repetition in its orientation training and allow employees with recent census experience to arrive for
training after the administrative portion of the new employee training is completed.

Materials for Targeted Non-Sheltered Outdoor Locations training can be improved

The Targeted Non-Sheltered Outdoor Locations training materials were late, not well organized, and
incomplete. The purpose of TNSOL is to try to reach and count some of the hard to reach people
who have no fixed address and are living on the streets. TNSOL sites include parks and under
bridges that are open to the elements and show evidence that people are living there. The late
delivery of the training materials did not cause postponement of the training. However, confusion
during the training due to typographic errors and other problems with how the training materials were
written may have been caught and dealt with more appropriately had the area manager and training
staff had more time to review the materials. For example, the TNSOL training materials referred
trainees to a number of attachments to the training handout, but at least two key documents were not
attached. Also, the “role-playing scenarios” used to prepare and teach enumerators how to act and
respond were stapled to the final quiz handout rather than as part of the main training handout. As a
result, they were not found in time and the field operations supervisor had to skip the role-playing
exercise called for before the quiz. Finally, samples of flash cards “A” and “B,” used during
enumeration to aid in the self identification of race and ethnicity, were not included in the packet,
despite the fact that they were referred to throughout the training.

We also noted that TNSOL training materials, including the misplaced role-playing documents, did
not address or prepare trainees for meeting uncooperative respondents during their enumeration
operation. In smaller communities like Menominee, where the staff already joke about how
“everybody knows everybody,” the impact on the quality of coverage data may be minimal. The



                                                  34
U.S. Department of Commerce                                                                 Final Report IPE-10753
Office of Inspector General                                                                         September 1998



materials did stress, appropriately, the crucial role that the “gatekeeper”24 to the TNSOL site played
in the enumeration procedure. However, the materials did not address what the crew or team leader
should do in the event that a “gatekeeper” was unavailable. (See Section C below.) Furthermore,
enumerators in the Keshena office did not have gatekeepers identified for their TNSOL sites.

Map spotting training possibly out of place in non-response follow-up training

Non-response follow-up training in Menominee was provided in the evenings over a five-day period.
The fourth day was designated for “field training,” where the trainees went into the field to work with
trainee maps. On the fifth day, the course covered map spotting and updating, as well as adding and
deleting addresses. Much of the staff we interviewed in Keshena believed that the field day exercise
would have been much more productive had it come after the class time spent on map spotting. They
suggested that the fourth and fifth day of training be switched, or that at least the map spotting part of
the curriculum be covered prior to the field day exercise.

C.      Targeted outdoors enumeration does not appear to meet bureau’s selection criteria

According to bureau documents, one of the criteria for selecting Targeted Non-Sheltered Outdoor
Locations sites is a location where 15 or more people are likely to congregate. TNSOL enumeration
in the dress rehearsal involved visits to 11 sites that were identified in late 1997 by the Menominee
tribal government liaison. We were told by the regional center’s area manager that about six weeks
before the TNSOL operation, the regional technician visited the 11 sites to verify their location. The
technician, hiking in snow to visit some of the sites, was not surprised to find no individuals at any of
the sites in that weather. TNSOL procedures required the team leaders to contact the listed
gatekeeper for each TNSOL site prior to enumeration to arrange enumeration times. However, no
gatekeepers had been identified by the tribal government liaison. During the visit six weeks prior to
TNSOL night, the regional technician found no gatekeepers at any of the sites, and the tribal liaison
had left the tribal government by that time. A gatekeeper, if identified, may have been able to provide
more accurate information about the number of people likely to be found at a given TNSOL site.

TNSOL procedures stated that each TNSOL team should visit no more than two sites in one day, and
each team should comprise seven enumerators. Therefore, based on 11 sites identified by the tribal
government liaison and a two-day period to complete TNSOL enumeration, the formula indicated
that 42 enumerators would be needed for Menominee. However, 42 enumerators would be more
than are even planned for non-response follow-up, which is the largest dress rehearsal activity in
Menominee. The area manager appropriately consulted with the regional center and bureau
headquarters about this problem and received approval to hire just 14 TNSOL enumerators, rather
than 42. For Menominee’s TNSOL operation, 12 were hired, 8 showed up for training, and for
TNSOL enumeration, the 8 were split into two teams.



        24
          A gatekeeper is someone identified by the local/tribal government who serves as a contact person for
TNSOL sites. The gatekeeper is familiar with the individuals that frequent the TNSOL site and, therefore, may
encourage the individuals to cooperate with the enumerator.



                                                         35
U.S. Department of Commerce                                                       Final Report IPE-10753
Office of Inspector General                                                               September 1998



One team visited six sites and found no one to enumerate, while the other team visited five sites and
enumerated five individuals. These sites clearly failed to meet the TNSOL criteria since according to
the TNSOL staff, it is not likely that any homeless persons would congregate at many of the 11 sites
during a typically cold April day in Wisconsin. One individual was observed at two different sites.
Because the same team visited both sites, he was enumerated only once. However, in larger
communities for Census 2000, repeat encounters are more likely to happen, having the inadvertent
effect of over-counting population in this and other related operations, such as shelter- and service-
based sites.

According to headquarters staff responsible for the TNSOL operation, the bureau trusts that the
local/tribal governments will adhere to the TNSOL criteria for selecting sites and is not prepared to
second guess their site selection. However, we believe that the lack of adherence to the explicit
TNSOL criteria could be a source of unnecessary cost growth in 2000. We are recommending that
the bureau review the TNSOL guidelines, site selection criteria, procedures, and dress rehearsal data
to (1) reassess the cost and effectiveness of the operation, (2) improve the process by which TNSOL
sites are identified and verified, particularly in the colder climates or rural areas, and (3) develop
alternative procedures for situations in which no gatekeeper is identified or available.

D.     Be Counted forms and boxes were placed according to procedures

The bureau has designated “Be Counted” sites where mail-back forms will be placed to encourage
participation by persons who traditionally are undercounted in the decennial census or who think that
they may have been missed. As part of the bureau’s process of identifying where Be Counted boxes
and forms would be placed, in February 1998, the Keshena office’s regional technician requested
eight boxes and associated forms for the Menominee dress rehearsal site. When more than three
times this many boxes were inexplicably sent to the Keshena office, the partnership specialist added 4
additional sites for a total of 12 -- 2 post offices, 2 senior citizen centers, 2 churches, 4 stores, a
health clinic, and a community center.

We visited 11 of the 12 sites, and verified that the boxes were accessible and that the Be Counted
forms were well-stocked. The attendants working near the boxes were aware that the forms were
intended for citizens who believed that they would not be enumerated. The attendants also stated that
the boxes were delivered a day or two before dress rehearsal Census Day, which complied with
Be Counted procedures. Although the boxes were accessible, at several sites they did not stand out
because they were placed on a cluttered counter or adjacent to a crowded bulletin board where
someone might not readily see the box. Based on actual counts of forms at nine sites (about 450
questionnaires), we estimate that over 100 Be Counted forms had been taken from the boxes by the
seventh day of the program, and about one-half of those had been taken from only three locations.

The bureau plans to perform evaluations of different dress rehearsal activities and programs, including
the Be Counted program. As key measures of the program’s success, the bureau will use the total
number of forms distributed at Be Counted sites and total number of addresses added to the Master
Address File from Be Counted forms. The bureau will not be able to complete its evaluation of the
program’s effectiveness until it gets an accurate count of both numbers. The final evaluation report is
planned for January 1999. However, we found that the role and purpose of the Be Counted program


                                                  36
U.S. Department of Commerce                                                         Final Report IPE-10753
Office of Inspector General                                                                 September 1998



were not widely understood by Keshena office staff. Few on the staff knew about the form or could
explain its purpose. If the staff did have a better understanding of Be Counted forms and boxes, they
may have been able to actively promote the program. The bureau should include the description and
purpose of the Be Counted program in staff training materials, if the program is retained.

E.     Questionnaire Assistance Centers not heavily used

We visited all three of the questionnaire assistance centers on the Menominee reservation, and
interviewed a center’s volunteer at two sites. The volunteer at the third site reportedly stopped
coming because no one had ever asked her for questionnaire assistance. The two volunteers
interviewed appeared to appreciate the potentially important role they might play in improving the
quality of coverage and household survey data in the area. Both volunteers reported being asked for
very little help, although one of them said she was quite pro-active in her community, encouraging
neighbors to complete their questionnaires. The small scale of Menominee operations may result in
relatively few questionnaire responses being attributed to the centers.


The bureau did not concur with our recommendation to develop a training plan that is flexible enough
to avoid repetition in its orientation training. The bureau cited five reasons for believing strongly that
its current policy to require all employees, whether new or experienced, to arrive for training at the
same time is a valid policy. These reasons included reinforcing administrative procedures, updating
project codes or other administrative details that may have changed, allowing former workers to bring
their unique experiences to newer employees, keeping previously trained employees from disrupting
training by arriving late, and fostering an atmosphere of teamwork.

However, we wonder whether the bureau has fully considered the cost effectiveness of including
previously trained employees in orientation training. For Census 2000, if there are numerous
employees repeating training for one to two hours multiplied by the number of operations and bureau
locations, this could be a significant cost to the bureau. In the training we observed, nearly two hours
was spent walking trainees through how to complete basic administrative paper work. There was
little, if any, discussion during that period about the specific operation the employees would work on
and the group took a break before proceeding with the actual TNSOL training module. Thus, several
of the reasons cited by the bureau in its response do not appear to support the current practice of
repeating basic training. We maintain that due to the potential cost of this policy, the bureau should
either provide more information on the cost effectiveness of continuing the current practice or
develop a training plan flexible enough to avoid the unnecessary repetition of orientation and
administration information. We have revised our recommendation accordingly.

In addition, the bureau concurred with our recommendations to (1) review the Targeted
Non-Sheltered Outdoor Locations guidelines, site selection criteria, procedures, and dress rehearsal
data and (2) include the description and purpose of the Be Counted program in staff training
materials. First, the bureau expects to develop a final plan on TNSOL enumeration by February
1999. We would like to review the bureau’s plan and working group’s approach to evaluating the
program prior to February 1999. The bureau should include a timetable for our review in its Action



                                                   37
U.S. Department of Commerce                                                         Final Report IPE-10753
Office of Inspector General                                                                 September 1998



Plan. Second, the bureau indicates that it will include a description of the Be Counted program in its
Census 2000 Partnership Implementation Plan and ensuring that a description is included in
subsequent partnership training materials. However, we stated in our draft report that the Keshena
staff did not understand the role and purpose of the Be Counted program. We believe that the bureau
should clarify in its action plan its intent to reach the local, non-partnership, staff during Census 2000
and the timing of this activity.




                                                   38
U.S. Department of Commerce                                                           Final Report IPE-10753
Office of Inspector General                                                                   September 1998



X.      Improvements are Needed in Some Key Administrative Operations

We found that improvements were needed in some key administrative operations: (1) procedures for
employee time sheets need to be followed, (2) the regional center could benefit from an on-line
scheduling tool, (3) the poor performance of employees must be documented, (4) employees must not
be hired prior to background check approval, (5) the regional center needs a backup plan for its office
automation operations, and (6) the non-response follow-up supplemental pay criteria need to be
better defined.

A.      Procedures for preparing, reviewing, and approving employee time sheets
        are not always followed

We reviewed 54 Daily Pay and Work records to determine (1) whether employee time and attendance
data entered into the payroll system was accurate, (2) how errors were detected, and
(3) what corrective actions were taken if errors are found.25 Although we found that the employees
we sampled were paid the correct salary and mileage rates, we noted that not all employee time sheets
were audited or signed by an authorized supervisor. According to bureau time and attendance
guidelines, payroll clerks must audit or review all employee time sheets for completeness and
accuracy. In addition, some people have been over-paid. Lastly, we noted that some time sheets
have illegible entries and hours are not correctly calculated based upon the start and end times
entered. While these problems have not revealed any significant errors to date, they do indicate a
weakness in internal controls that may result in potentially larger problems if not corrected.

“Audits” of time sheets are not always documented

The payroll system’s operating guide requires that all time sheets be “audited,” and the clerk who
audits the time sheet must initial and date it and provide any pertinent remarks. The clerk must initial
the form only if all entries are determined to be correct. If there is an error, the clerk makes a
correction in red ink and returns the form to the appropriate crew leader. However, without a proper
audit, time sheets may be inaccurate and result in incorrect paychecks. Audits of employee time
sheets, after being submitted to the regional center, are not being properly documented for every time
sheet. For example, one ICM crew leader’s time sheets from December 10, 1997, through March 27,
1998, did not have audit clerk initials indicating an audit was performed. Also, there were no audit
clerk initials on time sheets for one field operations supervisor during February and March 1998, and
several other employee time sheets lacked audit clerk initials for as long as two months.

Some time sheets are not properly signed

Employee time sheets are not always certified, as would be evidenced by employee and supervisor
signatures. For example, even though a field operations supervisor did not sign one of her time
sheets, her supervisor still signed the time sheet, and the time sheet was processed. In addition, many


        25
          The Daily Pay and Work Record (Form D-308) documents the hours worked by each employee and
expenses to be reimbursed to each employee.



                                                     39
U.S. Department of Commerce                                                       Final Report IPE-10753
Office of Inspector General                                                               September 1998



other time sheets had no supervisor signature at all, or were signed or initialed by other employees
who were not authorized to approve time sheets. Finally, some of the time sheets that lacked the
proper supervisor’s certification were audited, processed, and paid without being returned to obtain
the proper signature. According to the administrative manual used by the Menominee field office and
regional center, both the employee and supervisor must certify the legibility, completeness, and
accuracy of the time sheet, and determine whether the hours, mileage, and expenses are accurate. In
addition, the payroll system’s operating guide specifically states that the auditor should not process
the payroll form if it lacks employee and supervisor signatures.

Overtime for one timesheet was not accurate

We found that overtime hours on one time sheet was incorrectly calculated. The employee recorded
overtime without working the required 40 regular hours. As a result, the employee incorrectly
charged two hours of overtime. We are concerned that this timesheet was audited and the employee
paid. As a result of our finding, the bureau is sending an overpayment letter to this employee.

Number of hours worked does not always represent number of hours paid

We also noted that the number of hours worked on some time sheets did not match the hours paid.
For example, one employee was paid for eight hours but only worked seven hours, and the clerk
performing the audit did not correct this error. On another employee’s time sheet, the time of day
worked is illegible, making it difficult to determine the accuracy of hours worked. Although no audit
was performed to correct the illegible entry, the payroll system’s operating guide states that auditors
may disallow illegible entries.

Overall, our observations concerning time sheets indicate that without adherence to the guidelines for
preparing, approving, auditing, and correcting time sheets, there is a risk that paychecks will be
incorrect and the bureau could potentially overpay or underpay some employees for Census 2000. As
a result, the bureau needs to ensure that established procedures for preparing, reviewing, and
approving employee time sheets are followed.

B.     Manual scheduling of tasks at Regional Census Center is burdensome

During our visit to the Chicago regional center, we noted that bureau headquarters regularly provides
a printed schedule to the center that shows the beginning and end dates for each operation over a
three-month period. For example, the personal interviewing for integrated coverage measurement
and the non-response follow-up media campaign are two activities shown on the schedule. However,
the schedule does not provide any scheduling details about each task that the regional center needs to
accomplish under those individual operations.

The regional center must, therefore, maintain a separate manual schedule of the tasks for each
operation. Each time the bureau headquarters’ schedule slips, such as when training manuals are late,
the regional center has to manually adjust its task schedule. The regional center is faced with a time-
consuming process every time schedules change, and changes appear to occur frequently. An on-line
scheduling tool would save administrative time and enable regional center staff to be more available


                                                  40
U.S. Department of Commerce                                                       Final Report IPE-10753
Office of Inspector General                                                               September 1998



to perform census operations. The bureau should evaluate the feasibility of providing an on-line
scheduling tool for the regional centers and local offices that would enable them to better schedule or
reschedule tasks.

C.     Poor employee performance is not being documented

The regional center did not document the poor performance of at least one employee who separated
without being terminated for cause. This increases the risk that a poor performer could be rehired.
Employees who separate without being terminated for cause are those who leave on their own accord
and/or at the end of an operation. Between December 1997 and July 1998, no one was terminated
for cause at Menominee, but 11 people were later separated at the end of an operation. One of the 11
separated people was identified by the area manager as a poor performer. However, no regional
center personnel entered any information into the employee’s file or the automated administrative
system to indicate that this employee’s performance was not adequate.

The local census office’s administrative manual requires the supervisor to communicate to the
employee how his/her work performance is unacceptable and document this on Form D-282,
“Documentation of Performance and/or Conduct Problems.” However, the supervisor did not
verbally communicate the performance problem to the employee because the employee began
working late in the operation and her poor performance was not noted until the end of the operation.
In addition, the supervisor did not enter any information into the employee’s file. Without
documentation of poor performance, there is a risk that the poor performer could be rehired in the
future. The bureau should emphasize the importance of documenting poor performance in the
automated administrative system for all employees whose performance is not acceptable.

D.     One employee was hired prior to background check approval

The Keshena office hired one applicant before receiving Decennial Applicant Name Check clearance.
The bureau uses DANC to obtain any prospective employee information and a criminal record check
from the Federal Bureau of Investigation. Because the field operations supervisor incorrectly
informed the applicant that she was hired, the applicant attended non-response follow-up training.
Usually, regional center staff recruit for the Keshena office by telephone from Chicago. However, the
Keshena staff assisted the regional center with non-response follow-up recruiting because many
candidates were difficult to contact by telephone from Chicago. The Keshena staff used a recruiting
list provided by the regional center to contact applicants; however, one name on this list had not
cleared DANC.

The administrative operating guide specifically states that applicants who do not successfully pass
DANC are considered unacceptable risks and will not be hired. When regional center personnel
notified the field operations supervisor that this person had not cleared DANC, the person was let go.
The bureau needs to reinforce its procedures to prevent hiring individuals who have not obtained
DANC clearance.




                                                  41
U.S. Department of Commerce                                                                       Final Report IPE-10753
Office of Inspector General                                                                               September 1998



E.       Backup plan for office automation systems has not been prepared

We found that neither the Chicago regional center nor the bureau had prepared contingency plans for
the uninterrupted operation of the regional center’s automation systems, including payroll, personnel,
and geography. Bureau headquarters personnel stated that they are aware of this problem and are
discussing proposed solutions, including having the regional center’s processing done at headquarters
or at other regional centers should a system go down. One option is to use the bureau’s beta site,
located at headquarters, which is now being used to answer user questions and solve information
technology problems. The beta site has the same equipment and software as the regional centers.
Bureau personnel stated that another option is to have the regional centers provide backup support
for one another.

Office of Management and Budget Circular A-130 requires that appropriate contingency plans be
developed and maintained by information technology users to ensure that users can maintain their
operation if planned or actual information technology support is interrupted. The bureau should
therefore prepare a contingency plan for its office automation systems at the regional centers as soon
as possible, including (1) emergency response procedures to cover the appropriate response to a
disastrous event, (2) backup operations procedures to ensure that essential data processing
operational tasks can be conducted after disruption to the primary facility, and (3) recovery action
procedures to facilitate the rapid restoration of a facility following physical destruction, major
damage, or loss of data. Although the Chicago regional center has not had a power disruption, the
regional center should make interim backup arrangements until a bureau-wide backup plan is
prepared.

F.       Some non-response follow-up supplemental payment criteria are not clearly defined

The bureau has implemented a supplemental payment program for non-response follow-up that offers
additional pay if employees meet certain production and quality requirements. During
non-response follow-up, workers conduct personal visits to households to complete dress rehearsal
questionnaires that have not been returned. Each personal visit is considered one case. Under the
supplemental pay program, employees earn additional pay for cases on both a piece-rate and
end-of-operation basis. The piece-rate payment of $1.00 per completed case is offered to
enumerators if they meet the following criteria: (1) complete all assignments, (2) maintain a minimum
per hour production rate of 1.75 cases per hour, (3) remain available for additional assignments, (4)
pass re-interview successfully,26 and (5) work at least six hours on weekends. However, we found
that two of the five criteria for piece-rate supplemental pay are not clearly defined. In addition,
although we examined how supplemental payments were made, we did not evaluate the effectiveness
of the incentive program.




         26
          Re-interview is a quality assurance procedure that is conducted at the same time as non-response
follow-up to detect data falsification. During re-interview, either a telephone or personal visit is made to verify the
occupancy status and household roster from a sample of households.



                                                            42
U.S. Department of Commerce                                                        Final Report IPE-10753
Office of Inspector General                                                                September 1998



We found that the Keshena office is not complying with the first piece-rate criteria for completing all
assignments. The Keshena office made piece-rate payments to at least two enumerators with cases
outstanding. Because the administrative manual and supplemental pay flyers lack a thorough
definition of what completing all assignments means, the area manager interpreted the criteria in this
manner: she explained that with new work always being assigned, “completing all assignments” does
not mean finishing all work assigned, but making satisfactory progress on the work assigned.

According to the supplemental pay flyers, the piece-rate payment is to be paid on a weekly basis.
However, it takes longer than a week to complete all the cases in a typical non-response follow-up
assignment. This dilemma is contributing to the confusion related to “completing all assignments”
and how to pay employees appropriately. If the criteria for completing all assignments is not clarified,
employees may not understand what is required to earn the additional pay, and the intent of the
supplemental pay incentive may be lost.

The criteria for employees successfully passing the re-interview phase is also not being properly
followed. Specifically, we found that piece-rate payments are being paid prior to determining if the
employee has successfully passed the re-interview phase for the same week of work. The
administrative manual and supplemental pay flyers do not define when an employee must pass the re-
interview phase successfully in order to be paid supplemental pay, resulting in different interpretations
of this criteria. For example, the area manager reviews the employee’s re-interview experience prior
to the week that the supplemental payment is made. She told us that a weekly supplemental payment
would not be paid if an employee had not passed all re-interview phases up until that week.
However, the area manager does not review the employee’s re-interview experience for the same
week that the supplemental pay was paid. Thus, there is no mechanism to prevent the payment of a
weekly piece-rate payment to an employee who may subsequently fail the re-interview phase for the
same week of work. During our inspection, we did not find any such cases. Clearly, however, the
criteria for successfully passing the re-interview phase needs clarification

The bureau will evaluate the supplemental pay program at the conclusion of dress rehearsal and will
then determine whether to retain the program. If it decides to retain the supplemental pay program
for Census 2000, the bureau needs to clarify the policies and procedures on supplemental pay and
disseminate them to employees. The policies and procedures should include thorough definitions of
the criteria for completing all assignments and successfully passing the re-interview phase, to ensure
that all regional centers are administering the supplemental pay program properly and consistently.


The bureau will assess administrative procedures, including timesheet procedures, and notify regional
directors of findings and corrective actions needed to address problem areas. In addition, the Field
Division recently revised its guidance for obtaining a DANC waiver to provide additional clarification
of the documentation requirements and to reiterate the bureau’s policy that prohibits selecting and
appointing applicants outside of the PAMS/ADAMS operating system without the required
documentation and clearances. Also, a group of technical experts has been convened to design the
systems and procedures necessary to ensure full recovery capabilities for the regional centers and
local offices for Census 2000.



                                                   43
U.S. Department of Commerce                                                  Final Report IPE-10753
Office of Inspector General                                                          September 1998



In addition, the bureau agreed with our recommendation to emphasize the importance of
documenting poor performance in the automated administrative system for all employees whose
performance is not acceptable. The bureau recently modified PAMS/ADAMS to exclude previous
employees who have been terminated for cause. Only former employees who were separated from
the bureau on good terms will be listed as experienced employees on the selection certificates.
However, the bureau’s response to our recommendation was unclear about documenting poor
performance in PAMS/ADAMS. As a result, the bureau needs to clarify its response in its action
plan.




                                               44
U.S. Department of Commerce                                                        Final Report IPE-10753
Office of Inspector General                                                                September 1998



                                      RECOMMENDATIONS

We recommend that the Acting Director of the Bureau of the Census ensure that the following
actions are taken.

1.     Ensure that the proper map spot assignments, including housing unit/map spot numbers, have
       been accurately recorded in the bureau’s address list databases to support the (1) consistent
       matching of housing unit records during various operations, and (2) correct tabulation of data
       according to the local government’s geographic reassignments of housing units (see page 9).

2.     Determine the actual sources of the discrepancy between the update/leave maps and their
       address register and ensure that similar discrepancies do not occur in 2000 (see page 9).

3.     Reconfigure the PAMS/ADAMS software so that information about all candidates on a
       selection certificate can be readily printed in ranked order (see page 13).

4.     Ensure that there is closer coordination and prior consultation between the tribal leaders, tribal
       liaisons, partnership specialists, the Complete Count Committees, the prime contractor, and
       the subcontractor to strengthen the advertising campaign (see page 18).

5.     Ensure that the new automated regional center staffing report is accurate and timely and
       reflects all hiring information for regional center staff and local office manager positions (see
       page 22).

6.     If training manuals are still being updated near the training dates for Census 2000, the bureau
       needs to provide better notification to the regions concerning when the training manuals can
       be expected to be delivered, so that local managers can make the appropriate arrangements
       for assembling the materials and providing quality control (see page 23).

7.     Develop and implement a more accurate system for estimating the number of training manuals
       needed by trainees and staff for initial training and replacement training    (see page
       24).

8.     Establish consistent policies and procedures to ensure that all deliveries are promptly routed
       to the proper individual once deliveries have been received by a census office (see page 25).
       In addition, implement policies and procedures to reduce the volume of supplies and
       equipment delivered to the wrong location, particularly after the proper offices for the
       deliveries have opened (see page 25).

9.     Advise the Complete Count Committees to make every effort to sustain their work
       throughout all Census operations (see page 28).

10.    Determine whether its policy that all integrated coverage measurement materials are to be
       both shipped from and received at personal residences is valid for rural areas. If the policy is
       not valid for rural areas, the bureau needs to develop procedures identifying how office


                                                  45
U.S. Department of Commerce                                                        Final Report IPE-10753
Office of Inspector General                                                                September 1998



       personnel will handle the collocation of integrated coverage measurement and census
       materials in 2000 (see page 31).

11.    Ensure that Census guidelines for maintaining integrated coverage measurement independence
       are carried out (see page 31).

12.    Immediately correct the problem in the integrated coverage measurement enumerator history
       report to ensure that prior dress rehearsal experience is known about any persons hired for
       integrated coverage measurement operations (see page 32).

13.    Reevaluate the requirement that listers deliver questionnaires in strict adherence to the order
       listed on their address register, and determine under what circumstances, if any, it might be
       permissible for a crew leader or other appropriate staff member to approve delivery in some
       other order (see page 33).

14.    Develop a training plan that is flexible enough to avoid repetition in its orientation training and
       allow employees with recent census experience to arrive for training after the administrative
       portion of the new employee training is completed. Alternatively, the bureau should further
       justify the cost effectiveness of its current practice (see page 34).

15.    Review the Targeted Non-Sheltered Outdoor Locations guidelines, site selection criteria,
       procedures, and dress rehearsal data to (1) reassess the cost and effectiveness of the
       operation, (2) improve the process by which sites are identified and verified, particularly in the
       colder climates or rural areas, and (3) develop alternative procedures for situations in which
       no gatekeeper is identified or available (see page 36).

16.    Include the description and purpose of the Be Counted program in staff training materials, if
       the program is retained (see page 37).

17.    Ensure that established procedures for preparing, reviewing, and approving employee time
       sheets are followed (see page 40).

18.    Evaluate the feasibility of providing an on-line scheduling tool for the regional centers and
       local offices that would enable them to better schedule or reschedule tasks (see page 41).

19.    Emphasize the importance of documenting poor performance in the automated administrative
       system for all employees whose performance is not acceptable (see page 41).

20.    Reinforce procedures to prevent hiring individuals who have not obtained Decennial Applicant
       Name Check clearance (see page 41).

21.    Prepare a contingency plan for office automation systems at the regional centers as soon as
       possible, including emergency response procedures, backup operations procedures, and
       recovery action procedures. The Chicago regional center should also make interim backup
       arrangements until a bureau-wide backup plan is prepared (see page 42).


                                                   46
U.S. Department of Commerce                                                      Final Report IPE-10753
Office of Inspector General                                                              September 1998



22.    Clarify the policies and procedures on supplemental pay and disseminate them to employees,
       including thorough definitions of the criteria for completing all assignments and successfully
       passing the re-interview phase, to ensure that all regional centers are administering the
       supplemental pay program properly and consistently (see page 43).




                                                 47
U.S. Department of Commerce                                                         Final Report IPE-10753
Office of Inspector General                                                                 September 1998



                                            APPENDIX A
                                           Glossary of Terms

Address listing
Address listing is performed in rural areas (with predominately non-city style addresses) to create
mailing lists by identifying and listing the mailing addresses for all places where people live or could
live.

Census Field Office
A field office is a small office that establishes the bureau’s urban or rural presence for a short time
period prior to the census. Field offices oversee census operations in one or more counties, or in part
of a very densely populated county or jurisdiction. The bureau plans to open 425 to 450 temporary
field offices for Census 2000 to cover address listing field work and to conduct local recruiting.
Because all work elements scheduled for the field offices will be automated by the bureau’s regional
centers, field offices will not have any automation. Assignments will be generated within the regional
centers and distributed to the field offices via U.S. Postal Service and overnight mailings.

Data Capture Center
The data capture center is one of four decentralized Census Bureau facilities (one permanent in
Jeffersonville, Indiana; three temporary) that will check in Census 2000 questionnaires returned by
mail, create images of all questionnaire pages, and convert data to computer readable format. The
data capture centers also will perform other computer processing activities, including automated
questionnaire edits, work flow management, and data storage.

Geocoding
Geocoding is the assignment of an address, structure, key geographic location, or business name to a
location that is identified by one or more geographic codes.

Group quarters
Group quarters is a place where people live that is not the typical household-type living arrangement.
The Census Bureau classifies all persons not living in households as living in group quarters.
Institutional group quarters include nursing homes, prisons, and nursing homes. Noninstitutional
group quarters include college dormitories, hotels, and motels.

Housing unit
A housing unit is a house, an apartment, a mobile home, a group of rooms, or a single room that has
its own kitchen facilities, a separate entrance, and is occupied as a separate living quarters or, if
vacant, intended for occupancy as a separate living quarters.

Integrated Coverage Measurement
Integrated Coverage Measurement is a coverage measurement methodology that will be used to
determine the number of people and housing units missed or counted more than once in Census 2000.
This information is combined with the initial data collection results before producing a single set of
official census results (the one-number census).
U.S. Department of Commerce                                                        Final Report IPE-10753
Office of Inspector General                                                                September 1998



Using a sample of block clusters in urban and rural areas, enumerators will perform the following:

   •       Independent listing: create a list of housing units by identifying and recording the
           addresses for places where people live or could live in ICM areas.

   •       Housing unit followup: resolve differences between the ICM list of housing units and the
           census list.

   •       Person interview: conduct interviews at housing units in ICM areas and compare census
           household members with those obtained in the ICM interview.

Local Census Office
A local census office is a large office (about 6,500 square feet) that establishes the bureau’s urban and
rural presence in an area during the entire enumeration period. The bureau will have about 475
temporary local offices in 2000.

Master Address File
The master address file is a computer file based upon a combination of the addresses in the 1990
census address file and current versions, supplemented by address information provided by state,
local, and tribal governments. The MAF is being updated throughout the decade and will provide a
basis for creating the Census 2000 address list.

Non-response Follow-up
Non-response Follow-up is a census followup operation in which temporary field staff, known as
enumerators, visit addresses from which no questionnaire was returned by mail, from which a
telephone response was not received, or for which no administrative records could be located.
Enumerators help individuals fill out questionnaires at each location.

Questionnaire Assistance Center
Questionnaire Assistance Centers are places where specially trained and sworn volunteers, or bureau
employees, assist persons who may have questions or who may otherwise need help in completing
their questionnaire.

Regional Census Center
A regional census center is one of 12 temporary Census Bureau offices established to manage local
office activities and to conduct geographic programs and support operations such as automated map
production.

Service-based enumeration
Service-based enumeration is an operation designed to enumerate people at facilities where they
might receive services, such as shelters, soup kitchens, health care facilities, and other selected
locations. This operation targets the types of services that primarily serve people who have no usual
residence.

Targeted Non-Sheltered Outdoor Locations
Targeted Non-Sheltered Outdoor Locations is a program that compiles transient persons at locations,
such as parks and under bridges, that are open to the elements and show evidence that people are
living there.
U.S. Department of Commerce                                                    Final Report IPE-10753
Office of Inspector General                                                            September 1998



Update/leave
Update/leave is a method of data collection in which enumerators personally deliver a census
questionnaire to a household to be completed and returned by mail, and at the same time update the
address list.
U.S. Department of Commerce                                   Final Report IPE-10753
Office of Inspector General                                           September 1998




                                     APPENDIX B
                              Bureau of the Census Response
U.S. Department of Commerce   Final Report IPE-10753
Office of Inspector General           September 1998
U.S. Department of Commerce   Final Report IPE-10753
Office of Inspector General           September 1998
U.S. Department of Commerce   Final Report IPE-10753
Office of Inspector General           September 1998
U.S. Department of Commerce   Final Report IPE-10753
Office of Inspector General           September 1998
U.S. Department of Commerce   Final Report IPE-10753
Office of Inspector General           September 1998
U.S. Department of Commerce   Final Report IPE-10753
Office of Inspector General           September 1998
U.S. Department of Commerce   Final Report IPE-10753
Office of Inspector General           September 1998
U.S. Department of Commerce   Final Report IPE-10753
Office of Inspector General           September 1998
U.S. Department of Commerce   Final Report IPE-10753
Office of Inspector General           September 1998
